Pension Benefit Guaranty Corporation
     Office of Inspector General
   Semiannual Report to Congress




     April 1, 2012 - September 30, 2012,
      October 1, 2012 - March 31, 2013
   and April 1, 2013 - September 30, 2013
                              Pension Benefit Guaranty Corporation
                                              Office of Inspector General
                                      1200 K Street, N.W., Washington, D.C. 20005-4026




The Board of Directors
Pension Benefit Guaranty Corpora on

I am pleased to present the Oﬃce of Inspector General (OIG) Semiannual Reports for the Pension Benefit
Guaranty Corpora on (PBGC) for three periods: April 1, 2012 – September 30, 2012, October 1, 2012 – March 31,
2013, and April 1, 2013 - September 30, 2013. During these periods, we issued ten audit and evalua on reports
with twenty-seven recommenda ons for improvement. We completed 7 inves ga ons, resolved 129 complaints,
and had four addi onal cases accepted for prosecu on.

By statute, the IG is appointed by and reports to the Board of Directors (agency head). This repor ng rela onship
is important as the Board performs its oversight of PBGC; we appreciate the access we have with the Board at the
formal mee ngs and more informally through regular communica ons with the Board Representa ves. In
accomplishing our mission, the IG communicates with and issues audit and inves ga ve reports to the PBGC
Director, who has day-to-day responsibili es for the agency, and other PBGC leadership. Over the course of years,
the OIG has developed an eﬀec ve and professional working rela onship with the Corpora on that enables us to
accomplish our mission.

The OIG has a cri cal responsibility in preven ng and detec ng fraud, waste, abuse, and mismanagement, and in
providing independent audits, evalua ons, and inves ga ons of the PBGC's programs and opera ons. The OIG
con nues to focus its eﬀorts on iden fying issues that are important to PBGC and working on challenges the
Corpora on is facing, including:

    x   Adverse opinion on internal controls for the fourth consecu ve year
    x   IT challenges
    x   A high number of open audit recommenda ons rela ve to the size of the agency.

As I noted in my le er accompanying this year’s financial statement audit, only a small number of Federal en es
receive an opinion on internal control as part of their financial statement audit. To express an opinion, the
auditors must apply a high level of scru ny to the agency’s controls. From the incep on of its audited financial
statements, PBGC has always received this higher-standard opinion on internal control. For PBGC, the auditors
have concluded that the financial statement audit opinion is unmodified – that is, the highest opinion – however,
they have also concluded that the opinion on internal control over financial repor ng is adverse.

Serious internal control weaknesses in PBGC’s programs and opera ons resulted in three material weaknesses:
(1) Benefits Administra on and Payment Department management and oversight, (2) en ty-wide security
program planning and management, and (3) access controls and configura on management, and one significant
deficiency related to integra on of financial management systems. The three material weaknesses and the
significant deficiency are cri cal deficiencies. The existence of material weakness is an indica on that there is
more than a remote likelihood that a material misstatement of the financial statements will not be prevented or
detected. The material weaknesses also preclude the auditors from concluding that PBGC has eﬀec ve internal
controls. As a result, they must conduct a greater amount of substan ve tes ng to gain assurance that the
financial informa on is fairly presented in all material respects.
The OIG has iden fied serious internal control vulnerabili es and systemic security control weaknesses in the IT
environment over the last several years. PBGC’s delayed progress in mi ga ng these deficiencies at the root-
cause level has posed increasing and substan al risks to PBGC’s ability to carry out its mission. Due to the
pervasive nature of the issues and extended me required to mi gate the associated vulnerabili es, risks remain
that threaten PBGC’s ability to safeguard its systems. As noted above, two of the three material weaknesses are
IT-related.

We con nue to work with PBGC management to address 172 open recommenda ons. While some progress has
been made, we remain concerned about the pace of progress, since 103 of these recommenda ons have been
open for two years or longer, and targeted comple on dates have changed mul ple mes. PBGC ini ated a new
process requiring department directors to provide a ra onale for the extension of due dates for audit
recommenda ons that must be considered by the execu ves. We are hopeful that this will improve
management ownership of and accountability for mee ng remedia on deadlines.

Our work, including audits that are Congressionally requested or mandated by statute, will con nue to address
these challenges.

We had two significant leadership changes in the OIG during this period. On August 12, 2013, Rashmi Bartle
joined the OIG as the Assistant Inspector General for Audit. She is a Cer fied Internal Auditor and Cer fied Fraud
Examiner with over 20 years of experience in the federal government, financial services, telecommunica ons,
and real estate sectors. She has brought new energy and a fresh perspec ve to the oﬃce.

 On October 3, 2013, Inspector General Rebecca Anne Ba s re red from Federal service. She served the
government with excellence over a career of more than 33 years, with most of her contribu ons in the Inspector
General community. We appreciate and honor her significant contribu ons to PBGC as she led the Oﬃce of
Inspector General from May 2008 to October 2013 in addressing cri cal issues and issuing reports that resulted,
and con nue to result, in change of great consequence.




Deborah Stover-Springer
Ac ng Inspector General
Table of Contents
Le er to the Board of Directors

Execu ve Summary ........................................................................................... 1

Introduc on ....................................................................................................... 3
      The Pension Benefit Guaranty Corpora on
      The Oﬃce of Inspector General

Management Challenges

PBGC Needs to Focus on Correc ng Known Deficiencies Reported in Audits ......... 5


Significant Progress in Establishing Eﬀec ve Oversight of the Securi es Lending
Program ............................................................................................................ 12


Performance Audits, Evalua ons and Management Advisories ........................... 12
      PBGC Lawfully Terminated the Na onal Steel Plans, but Accepted Poor Quality
         Work from Contractors
      Management Advisory Report: Ensuring the Integrity of Policy Research and
         Analysis Department’s Actuarial Calcula ons

Financial Statement Audit: Unqualified Opinion on Financial Statements and
Adverse Opinion on Internal Controls ................................................................ 17
    Audit of the Pension Benefit Guaranty Corpora on’s Fiscal Year 2012 and 2011
        Financial Statements
    Report on Internal Control Related to the Pension Benefit Guaranty
        Corpora on’s Fiscal Year 2011 and 2010 Financial Statements Audit
    Audit of the Pension Benefit Guaranty Corpora on’s Fiscal Year 2012 and 2011
        Special-Purpose Financial Statements
    Fiscal Year 2012 Financial Statements Management Le er
    Statutory Review of PBGC’s Compliance with the Implementa on of
        The Improper Payments Informa on Act

Informa on Technology Audits and Follow-up .................................................... 25
      FY2012 Vulnerability Assessment, Penetra on Tes ng, and Social Engineering
         Report
      FY2012 Federal Informa on Security Management Act (FISMA) Submission
         to the Oﬃce of Management and Budget
      FY2012 Federal Informa on Security Management Act (FISMA) Independent
         Evalua on Report

                 SEMIANNUAL REPORT TO CONGRESS                           PERIODS ENDING 9/30/12 THROUGH 9/30/2013         iii
          FY2011 Federal Informa on Security Management Act (FISMA) Submission
             to the Oﬃce of Management and Budget
          FY2011 Federal Informa on Security Management Act (FISMA) Independent
             Evalua on Report
          Alert Memorandum: Compromise of Informa on Security
          Con nued Communica ons between OIG and OIT Report

     Inves ga ons .....................................................................................................28
           Fraud Related to Pension Benefits
                Plan Par cipant Receives Over $25,000 in Back Pay
                A empted Fraud Against PBGC Account
           Management Advisory
                Weaknesses in Review of Labor-Hour Contract Invoices
                Errors in Weirton Steel Par cipant Data Audit Similar to Those in Na onal
                    Steel
           Correc ve Ac ons Resul ng from Inves ga ons
                PBGC Strengthens Transporta on Subsidy Program and Requires
                Repayment of Money


     Other OIG Statutory Repor ng ............................................................................31
           Access to Informa on
           Management Decisions
           Audit Peer Review Results
           Review of Proposed Statutory and Regulatory Changes


     Other Oﬃce of Inspector General Ac vi es .........................................................33
           CIGIE Award to the Mission-Cri cal Plan Processing Evalua on Team
           Training Cost Savings for the IG Community
           External and Internal Professional Ac vi es


     Appendix .........................................................................................................37
           Cross-Reference to Repor ng Requirements of the Inspector General Act
           Summary of Audit and Inves ga ve Ac vi es
           Results of Reports Issued
           Summary of Reports Older Than Six Months for Which Management
                Decision Has Not Been Achieved
           Previously Reported Significant Recommenda ons for Which Correc ve
                Ac on Has Not Been Completed




iv    PBGC OFFICE OF INSPECTOR GENERAL
Execu ve Summary
This consolidated Semiannual Report to Congress summarizes the ac vi es and
accomplishments of our oﬃce for three periods: April 1, 2012 – September 30, 2012, October
1, 2012 – March 31, 2013, and April 1, 2013 - September 30, 2013. During these repor ng
periods, our work addressed a wide range of issues with the Corpora on.

We con nue to monitor PBGC’s eﬀorts to improve its internal controls. Indica ve of PBGC’s
ineﬀec ve internal control structure is the large number of open audit recommenda ons. We
noted that more than 60% of the recommenda ons that remain open relate to needed
improvements in informa on technology and the need to establish or improve procedures
(see pages 5-11).

PBGC made significant progress in some areas. We agreed with the closure of the remaining
four outstanding recommenda ons related to its securi es lending program. In general, the
findings dealt with the absence of PBGC wri en policies and guidance for the program (see
pages 11-12). PBGC also demonstrated enhanced commitment to addressing OIG concerns
by, for example, making significant changes in benefit opera ons, holding managers
accountable for recommenda on comple on dates, increased a en on to developing
correc ve ac on plans and other ways in which there are new levels of accountability (see
pages 10, 11, and 15).

In response to a request from U. S. Senators Amy Klobuchar and Al Franken, and former U.S.
Congressman James Oberstar, we reviewed PBGC’s ac ons when termina ng certain steel
plans located in Minnesota. In our second of two reports we determined that PBGC complied
with its statute when making termina on and benefit decisions; however, its processes for
valida ng par cipant informa on were seriously flawed (see pages 12-16).

In response to a request from Congressman George Miller regarding PBGC’s re-valua on of
the assets of United Airlines’ (UAL) terminated pension plans, for the assets we tested, we
concluded that PBGC’s latest contractor had properly valued the assets at the fair market
value at the date of plan termina on (see pages 16-17).

We issued the 20th consecu ve unqualified opinion on PBGC’s financial statements. For the
fourth year, we reported an adverse opinion on internal controls based on three material
weaknesses: enterprise-wide security program planning and management; access controls
and configura on management; and Benefits Administra on and Payment Department
opera ons. We issued a report on internal controls to provide greater detail about these
material weaknesses (see pages 17-24).

In a statutorily-mandated audit, we concluded that PBGC was generally in compliance with
the Improper Payments Informa on Act (see pages 24).




         SEMIANNUAL REPORT TO CONGRESS           PERIODS ENDING 9/30/12 THROUGH 9/30/2013     1
    Our inves ga ve ac vity resulted in the issuance of several management advisories that
    iden fied errors in data audits; recommenda ons to strengthen the oversight of the
    PBGC transporta on subsidy program; and internal control weaknesses in the invoicing
    process for labor hour contracts (see pages 28-30).

    Our oﬃce remains ac ve on various CIGIE commi ees and working groups to support
    ongoing ini a ves within the inspector general community. We have par cipated in the
    New Media Working Group, the CIGIE Website Redesign Working group, and the
    Inspector General Focus Group to refine and discuss the OIG Federal Informa on
    Security Management Act (FISMA) metrics. Our senior leadership team has served on
    the various Council of Inspectors General for Integrity and Eﬃciency commi ees,
    including Informa on Technology, Assistant Inspectors General for Inves ga on, and
    Accoun ng and Audit Policy, providing important leadership and guidance to
    inves ga ve and audit func ons within the IG community (see pages 34-35).




2           PBGC OFFICE OF INSPECTOR GENERAL
Introduc on
The Pension Benefit Guaranty Corpora on
For more than 42 million Americans, the Pension Benefit Guaranty Corpora on (PBGC
or the Corpora on) provides assurance that their re rement benefits will be paid, up
to a statutory limit. PBGC protects the pensions of par cipants in certain defined
benefit pension plans (i.e., plans that promise to pay definite, determinable re rement
benefits). Such defined benefit pension plans may be sponsored individually or jointly       PBGC paid $5.5
by employers and unions. PBGC is now responsible for the pensions of over 1.5 million
                                                                                          billion in benefits to
people in more than 4,600 failed plans. In its FY 2013 annual report, PBGC reported
that:                                                                                        900,000 re rees.


   x it paid $5.5 billion to 900,000 re rees;
   x it assumed responsibility for more than 57,000 addi onal workers and re rees
      in 111 failed plans; and
   x it is responsible for future payments to about 620,000 par cipants in
      terminated pension plans who have not yet re red.

As of the end of FY 2013, PBGC had an investment por olio of more than $77.1 billion.
The Corpora on reports having suﬃcient liquidity to meet its obliga ons for a number
of years, despite a cumula ve deficit of $36 billion from the single-employer and
mul employer programs. Neither program at present has the resources to sa sfy all of
the benefit obliga ons already incurred, much less future obliga ons likely to be
assumed.

PBGC was established under Title IV of the Employee Re rement Income Security Act
of 1974 (ERISA), as amended (29 U.S.C. §§ 1301-1461), as a self-financing, wholly-
owned Federal Government corpora on to administer the pension insurance program.
ERISA requires that PBGC: (1) encourage the con nua on and maintenance of
voluntary private pension plans, (2) provide for the mely and uninterrupted payment
of pension benefits to par cipants and beneficiaries, and (3) maintain premiums at the
lowest level consistent with carrying out PBGC’s obliga ons.

PBGC’s governance structure comprises the Board of Directors, their Board
Representa ves, a Presiden ally-appointed Director, and Congressional oversight.
Other elements of governance include PBGC’s system of internal control, its clearly
ar culated authority to act, and the policies and procedures under which PBGC
operates. PBGC governance is complex and requires those who are charged with its
oversight to view the Corpora on from a number of diﬀering perspec ves. Oversight
by the PBGC Board, PBGC management and the OIG is cri cal to eﬀec ve corporate
governance.




          SEMIANNUAL REPORT TO CONGRESS           PERIODS ENDING 9/30/12 THROUGH 9/30/2013        3
                       The Oﬃce of Inspector General
                       The PBGC Oﬃce of Inspector General (OIG) was created under the 1988 amendments
                       to the Inspector General Act of 1978. We provide an independent and objec ve voice
                       that helps the Congress, the Board of Directors, and PBGC protect the pension benefits
                       of American workers. Like all Oﬃces of Inspector General, the PBGC OIG is charged
                       with providing leadership and recommending policies and ac vi es designed to
                       prevent and detect fraud, waste, abuse, and mismanagement; conduc ng and
                       supervising independent audits and inves ga ons; and recommending policies to
                       promote sound economy, eﬃciency, and eﬀec veness.

                       To provide value, we focus our work on the challenges facing PBGC. We strive to target
                       the highest risk areas and emphasize mely repor ng of results. We determine what
                       we will inves gate and audit and how we will conduct those inves ga ons and audits.
                       We determine our own priori es and have our own independent legal counsel. Our
Inspector General is   audit and inves ga ve staﬀ is competent and experienced, with professional
 organiza onally       backgrounds in other Oﬃces of Inspector General, independent accoun ng firms, and
   independent.        federal criminal inves ga ve agencies. We independently respond to Congressional
                       requests and ini ate contact with Congress, as warranted.

                       The PBGC OIG is in full compliance with the Quality Standards for Federal Oﬃces of
                       Inspector General, published by the Council of Inspectors General on Integrity and
                       Eﬃciency (CIGIE) updated in December 2011. Our audit work is performed in
                       compliance with Generally Accepted Government Audi ng Standards, issued by the
                       Comptroller General of the United States, and our inves ga ons are performed in
                       compliance with CIGIE Quality Standards for Inves ga ons.

                       The PBGC OIG is organiza onally independent. The Inspector General reports directly
                       to the highest level of PBGC governance, the PBGC Board, and to Congress. In
                       execu ng our independent oversight role, we perform a range of legally-mandated
                       work (e.g., the annual financial statement audit and the annual Federal Informa on
                       Security Management Act review), as well as a body of discre onary work.




          4            PBGC OFFICE OF INSPECTOR GENERAL
Management Challenges
PBGC faces significant management challenges in the areas of informa on technology
and security; and eﬀec vely execu ng the benefits administra on processes, most
notably properly valuing the assets of terminated pension plans. PBGC has received an
adverse opinion on internal control in the past four years’ annual financial statement
audits. Indica ve of PBGC’s ineﬀec ve internal control structure is the large number of
open audit recommenda ons. As of the close of this repor ng period (9/30/13), PBGC
had 172 open audit recommenda ons stemming from twenty-nine OIG audit reports.
Commitment to taking ac on to address weaknesses, assigning accountability, and
tes ng those ac ons’ eﬀec veness so that audit recommenda ons can be closed is
indica ve that management is serious about internal control. That commitment has
not been consistently demonstrated across PBGC. Thus, eﬀec ve ac on to address
audit findings and recommenda ons has now become a management challenge in
itself.

                                                                                          As of September 30,
PBGC Needs to Focus on Correc ng Known Deficiencies                                       2013, there are 172
Reported in Audits                                                                               open
                                                                                          recommenda ons.
The IG Act requires Inspectors General to report aﬃrma vely to Congress on the status
of recommenda ons stemming from OIG reports. In each semiannual report, we
include a sec on highligh ng and repor ng the large number of open audit
recommenda ons. This repor ng has not spurred PBGC to make significant progress in
addressing open audit recommenda ons, resul ng in a con nued number of
recommenda ons that have received li le or no ac on to resolve the underlying
deficiencies. In addi on, the open recommenda ons relate to a large number of audit
reports – 29 – meaning that the OIG has been issuing audit reports with findings and
recommenda ons over a long course of years for which management has either not
corrected or not corrected eﬀec vely. We note that:

    x   At the end of 9/30/12, there were 183 open recommenda ons;
    x   At the end of 3/31/13, there were 158; and
    x   As of 9/30/13, there were 172.

If PBGC doesn’t assign accountable people, develop correc ve ac ons plans, or
establish firm dates for comple on, then the result is a culture of poor internal
controls.

To put the current 172 open recommenda ons in context, we examined the
recommenda ons from various viewpoints.

Departments responsible for correc ve ac on. The majority of recommenda ons -
131 or 74% - relate to weaknesses in informa on technology (IT) and benefits
administra on. The 67 open IT recommenda ons were issued primarily from our
financial statement audits and the Federal Informa on Security Management Act
             SEMIANNUAL REPORT TO CONGRESS            PERIODS ENDING 9/30/12 THROUGH 9/30/2013   5
                         (FISMA) assessments; the Oﬃce of Informa on Technology (comprised of two
                         departments) is responsible for correc ve ac on. There are 64 open recommenda ons
                         related to benefits administra on, many of which stem from our reports addressing
                         significant systemic weaknesses in plan asset valua on and par cipant data audit
                         process and other weaknesses iden fied in the financial statement audits. These are
                         the responsibility of the Benefits Administra on and Payment Department (BAPD).

                         Age of the recommenda ons. Of the 172 recommenda ons:
                            x    17 are less than six months old;
                            x 5 are between 6 months-1 year;
                            x 47 are between 1-2 years;
                            x 26 are between 2-3 years;
                            x 48 are between 3-5 years; and
                            x 29 are more than 5 years old.




                         These sta s cs, however, don’t tell the whole story. While it is not good to have
                         recommenda ons open for more than 5 years, if PBGC is working on them and keeping
                         OIG apprised of their ac ons to resolve the recommenda ons, including ini a ng
                         mi ga ng controls, then we can evaluate the level of risk to PBGC. For example, for
     Majority of         the Corpora on’s very oldest recommenda ons – 12 rela ng to developing an
 recommenda ons          integrated financial management system – the Chief Financial Oﬃcer provides annual
are in IT and benefits   briefings on progress and stumbling blocks. We first reported PBGC’s need for an
administra on areas.     integrated financial system in 1996. Since that me, PBGC has been adding financial
                         modules to reduce manual and duplica ve processing. PBGC reports that the
                         Consolidated Financial System would be completed in the first quarter of FY 2014.

                         We have 9 outstanding recommenda ons, the earliest of which is from 1999,
                         addressing the need for a reliable premium accoun ng system. During this lengthy
                         period, PBGC has reported on updates to the old premium accoun ng system and
                         mi ga ng controls implemented un l the new Premium Prac oner System (PPS) is
                         implemented. PBGC reports that PPS has been developed and tested and will be
                         implemented in late 2013. The new PPS will need to be opera ng in the produc on

           6             PBGC OFFICE OF INSPECTOR GENERAL
environment for a period of me, and tested for reliability and assurance that staﬀ are
trained and using it before we can consider it closed.

On the other hand, there are numerous recommenda ons that have languished, with
their expected comple on dates being extended mul ple mes. For example, 60 of the                  60 of the 172
172 recommenda ons’ comple on dates have been changed five or more mes;
                                                                                                 recommenda ons’
some mes those dates delay remedia on for a few months, but some mes for a year
                                                                                                 comple on dates
or more. Seventeen of the 60 are recommenda ons less than three years old. That
means that over a 36-month period, 17 recommenda ons have had their expected                     have been changed
comple on dates changed 5 or more mes. The IT recommenda ons account for 30%                     five or more mes.
of the 60.

Themes of the recommenda ons:
The recommenda ons can be classified into six major themes, with some further
divided into sub-categories. Except for the IT (#1) and Benefits and Plan valua on
issues (#4) categories, the following recommenda on themes exist throughout the
Corpora on’s departments.

   1. Informa on Technology comprise 62 recommenda ons. Of these 62,
      categories include: general informa on security (35); access controls (14);
      configura on management (7); and security of personally-iden fiable
      informa on (6);
   2. The need to establish or improve procedures comprises 40 recommenda ons ;
   3. Financial management comprises 14 recommenda ons, including, integrated
      financial management (1), securi es lending (4), premium accoun ng system
      (9);
   4. Benefits and Plan valua on issues (13);
   5. Quality control (17);
   6. Procurement and Contractor Oversight (11);
   7. Other (15), including influx report (4), training (7), records management (4)



                Themes of Open Recommendations as of 09/30/2013

                        9%                              Information Technology
                  10%                36%
           6%                                           Financial Management
                                                        Benefits and Plan Valuation
                                                        Needs to establish or Improve Controls
            23%
                                    8%                  Procurement Contract and Oversight
                             8%
                                                        Quality Control
                                                        Other




                   SEMIANNUAL REPORT TO CONGRESS         PERIODS ENDING 9/30/12 THROUGH 9/30/13        7
                      When the recommenda ons are viewed by themes, we see that there are common
                      weaknesses throughout the Corpora on: non-existent or inadequate procedures;
                      quality control; and contractor oversight. Moreover, PBGC is very IT-dependent, so
                      those weaknesses impact the whole agency.


                      There are a variety of contribu ng factors to the many uncorrected weaknesses. For
                      some recommenda ons, correc ve ac on plans were not developed or staﬀ were not
                      assigned as accountable for addressing the issues. One example is PBGC’s response to
                      our report Evalua on of PBGC’s Strategic Prepara ons for a Poten al Workload Influx,
                      issued in November 2010, in response to a request from then-Senator Kohl. Our report
                      concluded that PBGC needed to enhance its ability to deal with a poten al influx of
                      terminated pension plans, to include ensuring that the important role of contractors is
                      recognized in PBGC’s strategic approach. We made five recommenda ons; PBGC did
                      not agree with four of the five findings and proposed alterna ve ac ons. The OIG
                      commented that the alternate ac ons lacked specificity to allow us to determine that
                      the proposed approach would eﬀec vely address the findings and recommenda ons.
                      We asked for an update within 90 days. We did not receive the update. A er
                      numerous follow-ups, we met with PBGC senior management in January 2012, who
                      informed us that no ac on had been taken to address the recommenda ons, but
                      commi ed to focusing on the report’s findings and proposed alternate ac ons. PBGC
                      agreed there is value in considering the workload influx from a broader strategic
                      perspec ve and the Director expressed his full support. Recently, PBGC has made
                      progress on these recommenda ons. The Director of Budget was assigned
                      responsibility; as result, he has proposed process changes for PBGC to consider
                      poten al workload influxes through the budget process. We have met mul ple mes
                      with him and his staﬀ as they work toward eﬀec ve correc ve ac ons and appropriate
 Two IT material      documenta on of their processes. We are encouraged by the cri cal thinking and
weaknesses persist.   management a en on these findings and recommenda ons are now receiving.


                      Despite progress, IT issues persist. For other recommenda ons, the magnitude of
                      weaknesses to be addressed and the press of day-to-day business result in a worsening
                      environment. This is most evident in the open IT recommenda ons. PBGC has an
                      adverse opinion on internal control in the financial statement audit related to three
                      material weaknesses and one significant deficiency. Two of the three material
                      weaknesses are IT-related: the overall informa on security program, and
                      configura on management and access controls.


                      The OIG remains concerned at the pace in which PBGC has addressed its long-standing
                      IT security excep ons. PBGC has a 5-year IT correc ve ac on plan (CAP), with ac ons
                      and dates extending un l FY 2015. Progress has been made in some areas, such as
                      vulnerability scanning, risk acceptance, and Security Assessment and Authoriza on
                      (SA&A) for major systems; however, too many OIG recommenda ons remain
                      uncorrected. Eleven IT recommenda ons issued in 2007 have not been remediated,
                      and many are not scheduled to be completed un l the end FY 2013. In other instances,
                      PBGC has modified expected comple on dates, devia ng from the IT correc ve ac on
                      plan and comple on dates submi ed to OIG. And, the longer IT deficiencies remain
                      uncorrected, they are exacerbated by an quated equipment and opera ng systems
                      which are at a greater risk of failure and non-support from vendors.


          8           PBGC OFFICE OF INSPECTOR GENERAL
Moreover, PBGC’s approach to resolving some open IT recommenda ons seems
imprac cal. For example, PBGC has a number of open recommenda ons related to
configura on management, many of which have existed since FY 2009. As of
September 30, 2012, PBGC had reported it expected to ensure baseline configura on
standards are established for all systems by October 31, 2013. However, the
Corpora on had also reported this same comple on date for reviewing configura on
se ngs, documen ng discrepancies and developing correc ve ac ons for systems that
do not have configura on standards. OIG has observed that comple ng both tasks
simultaneously is unfeasible given that standards must be established and
implemented before any reviews are conducted. The slow progress with which PBGC is
addressing a significant number of deficiencies causes concern. Informa on
technology is ingrained in PBGC’s opera ons. While PBGC struggles to address five-
year-old recommenda ons, new threats are emerging, and new technologies are being            PBGC needs to
introduced. If PBGC is going to con nue to remain a leader in the pension community,    address five-year-old
addressing systemic IT issues in a mely manner will be cri cal.
                                                                                         recommenda ons
                                                                                        and current IT risks.
Some progress has been made. For example, during the FY 2012 financial statement
audit, OIT ini ated a new process to report on progress of open IT audit
recommenda ons for which they had taken steps to address the underlying weakness
but had not yet completed ac ons suﬃcient to close them. They submi ed progress
status reports, with ar facts, for 39 OIT recommenda ons. They also provided several
briefings to discuss slow progress in comple ng CAPs and the alignment of various
plans of ac on. OIT con nued this prac ce during the FY 2013 financial statement
audit. PBGC submi ed 30 progress status reports.


We are encouraged by PBGC’s selec on of a new Chief Informa on Oﬃcer (CIO). He
has engaged in open dialogue with the OIG about the deficiencies and his plans for
addressing them. For example, we were not able to close nine of the twelve IT
recommenda ons that were submi ed for closure during the recent financial
statement audit. OIT department directors asked to meet with us to understand what
was lacking in their correc ve ac ons and documenta on. The CIO, directors and
responsible IT staﬀ engaged in detailed discussions about improvements and
documenta on the auditors would need to close the recommenda ons. The CIO has
commi ed to submi ng audit documenta on for considera on of recommenda on
closure earlier in the financial statement audit process.

Slow progress in addressing benefits administra on issues. Sixty-four of the 172 open
recommenda ons relate to opera ons of the Benefits Administra on and Payment
Department (BAPD), the department responsible for termina ng and trusteeing failed
pension plans, determining the value of the remaining plan assets, and calcula ng and
paying individual plan par cipants' benefits. Some audit recommenda ons have
languished, including some that needed immediate a en on to iden fy and prevent
improper payments.

For example, one report, issued in February 2006, found that PBGC did not have
internal controls to iden fy when a plan par cipant con nued to be eligible for
disability benefits or when the par cipant might be impacted by an earnings

            SEMIANNUAL REPORT TO CONGRESS           PERIODS ENDING 9/30/12 THROUGH 9/30/13       9
                       limita ons report. If PBGC con nued paying benefits to par cipants who were
                       ineligible to receive them, those would be improper payments. The report had seven
                       recommenda ons. Un l this year, BAPD had not submi ed any documenta on to
                       show progress in addressing any of the recommenda ons, and each of the
                       recommenda ons’ comple on dates have been delayed six mes. During 2013, BAPD
                       met with the OIG mul ple mes concerning these recommenda ons. Accountable
                       persons have taken specific ac ons to address the recommenda ons, and BAPD has
                       now submi ed seven recommenda on closing packages which are currently under OIG
                       review.

                       As in OIT, we are encouraged by the ac ons of PBGC’s Director of BAPD, who met with
                       the OIG within his first weeks on-board in August 2012 and has demonstrated his
                       commitment to taking correc ve ac ons. For example, he ini ated quarterly briefings
                       on correc ve ac ons related to the recommenda ons resul ng from the material
                       weakness iden fied in financial statement audit. The briefings are supported by
                       specific ac on plans and dates. Though some items will not be corrected un l 2014 or
                       beyond, this a en on to developing correc ve ac on plans and assigning responsible
                       managers demonstrates a new level of accountability and transparency. In FY 2013,
                       the OIG was able to concur in the closure of 17 recommenda ons based on
                       documenta on BAPD submi ed; they have con nued this good progress in submi ng
                       closure packages with which the OIG concurred in the early days of FY2014.

                       Extensions of recommenda on comple on dates. Exacerba ng the lack of meaningful
                       ac on plans to resolve recommenda ons was department directors’ historic ability to
                       change target comple on dates with li le or no jus fica on.


                       For example, during the repor ng period ending 3/31/12, PBGC changed the expected
Lengthy extension of   comple on dates for 93 of the 124 recommenda ons it had planned to complete by
 recommenda on         September 30, 2011. This calls into ques on PBGC’s commitment to mely remediate
 comple on dates       recommenda ons. Of these 93 recommenda ons, we observed the following:

  raises concerns.        x   For 28 recommenda ons, their target comple on dates were extended for a
                               year or more, three of which were extended 18 months or more;

                          x   In the November 2011 report finding that PBGC had improperly valued the
                               assets of the United Airlines pension plans, OIG recommended ac ons to
                               ensure the asset valua on process was eﬀec ve; some were cri cal changes to
                               ensure that current plan valua ons did not “go oﬀ the rails,” including:
                               x to establish the requirement to brief a knowledgeable senior leader on the
                                   audit results/devia ons for plan valua ons of very large plans, plans with
                                   significant valua on challenges, and where error rates exceed allowable
                                   thresholds;
                               x to clarify BAPD procedures to require documenta on of variance
                                   resolu on; and
                               x to develop procedures, including consulta on with the Oﬃce of General
                                   Counsel, when access to records denied.

                                For each of these recommenda ons, PBGC requested extensions from 11-16
                                months.
          10           PBGC OFFICE OF INSPECTOR GENERAL
   x   PBGC requested mul ple extensions over a two year period (from 5/31/11 –
        8/31/13) for a 2010 OIT recommenda on to develop and implement a capacity
        plan that documents current resource u liza on and ensures systems are
        ready to support increased workloads that might occur with an influx of new
        plans, to include the addi on of other oﬀ-site loca ons such as addi onal field
        benefit oﬃces.


As a result of concerns raised by the OIG, PBGC has taken ac on to hold managers                Improved
more accountable for recommenda on comple on dates. Department Directors are
now required to provide a ra onale for requested extensions of audit recommenda on        accountability and
due dates to the Execu ve Management Commi ee-level. Revised dates cannot be                   encouraging
communicated to the OIG without Execu ve no fica on. Execu ve oﬃcials now report          progress in some
quarterly on the progress of outstanding audit recommenda ons within their areas of
                                                                                           areas of PBGC.
responsibility.

Progress

In addi on to the progress noted in OIT and BAPD above, there are some “bright
spots” within PBGC that have made significant progress on closing or addressing
recommenda ons that were quite old.

   x   The Procurement Department (PD) currently has one open recommenda on.
        During this period, we were able to close recommenda ons that had been
        open for several years. PD has focused a en on on correc ng some of its
        oldest deficiencies and developing new controls to improve its business
        processes. For example, in one year (4/1/2011 – 3/31/2012), we agreed to the
        closure of 39 recommenda ons of the Procurement Department, 19 of which
        were 3-5 years old and 18 were more than 5 years old.

   x   For the 2009 Securi es Lending report, we have had on-going discussions with
        the Chief Financial Oﬃcer, Chief Investment Oﬃcer, and staﬀ of the Corporate
        Investment Department (CID) about ac ons necessary to close the 16
        outstanding recommenda ons. Basically, CID had established new procedures
        and controls for the securi es lending program but they had not been
        opera onal long enough for the OIG to test their eﬀec veness. CID submi ed
        documenta on for closure to the OIG in July 2012; upon our evalua on, we
        closed 12 of the Securi es Lending recommenda ons (discussed in detail
        below). We note that a er 9/30/13 but before this report was issued, we were
        able to concur in closing the remaining four open recommenda ons.




              SEMIANNUAL REPORT TO CONGRESS           PERIODS ENDING 9/30/12 THROUGH 9/30/13     11
                        Significant Progress in Establishing Eﬀec ve Oversight of
                        the Securi es Lending Program

                        PBGC made significant progress enabling OIG to agree with the closure in July 2012 of
                        12 of the 16 recommenda ons related to its securi es lending program, made in our
                        2009 report Evalua on of the PBGC’s Ac vi es With Respect to Its Securi es Lending
                        Program EVAL-2009-06/ FA-08-51 (July 9, 2009). Subsequently, in 2013, PBGC
                        submi ed addi onal evidence which enabled OIG to close the remaining four
                        recommenda ons.

                        PBGC engages in securi es lending as part of its overall investment program. Securi es
                        lending is the process through which an investor in possession of a security allows
                        another investor to borrow that security and use it as if owned by the borrower in
 OIG concurred in       exchange for collateral and payment of a fee. PBGC lends its securi es through a
closing all securi es   lending agent, which is a common vehicle to enable ins tu onal investors to lend their
      lending           por olio.

recommenda ons.         OIG hired Independent Fiduciary Services (IFS), under OIG oversight, to evaluate
                        whether the internal controls surrounding PBGC’s monitoring of these ac vi es and
                        the related contract were adequate, how the contract and agreement compared to
                        similar agreements in the industry, and whether the arrangement was advantageous
                        to PBGC. Through this review we iden fied several findings and recommended a
                        number of correc ve ac ons. In general, the findings dealt with the absence of PBGC
                        wri en polices and guidance for the program.

                        Over the last three years, in consulta on with outside experts, PBGC has worked to
                        create governing documents to aid in the management of this program. These
                        documents include the policies, purpose, objec ves, responsibili es, guidelines, and
                        opera onal methodologies related to its securi es lending program. PBGC’s correc ve
                        ac ons enabled OIG to close 12 recommenda ons, however, four recommenda ons
                        remained open in FY 2013. To address those recommenda ons, PBGC needed to
                        implement more robust program monitoring and establish parameters to be er assess
                        performance for its securi es lending opera ons. During 2013, PBGC re-submi ed
                        documenta on to support its ac ons. At the end of this repor ng period, OIG was s ll
                        in the process of assessing PBGC's ac ons for these four recommenda ons; however,
                        prior to the issuance of this report we communicated concurrence with their closure to
                        management.

                        Performance Audits, Evalua ons and Management
                        Advisories

                        PBGC Lawfully Terminated the Na onal Steel Plans, but Accepted Poor
                        Quality Work from Contractors
                        EVAL 2014-01/PA-09-66-2 (October 23, 2013)
                        (http://oig.pbgc.gov/pdfs/PA-09-66-2.pdf)

                        In response to a request from U. S. Senators Amy Klobuchar and Al Franken, and
                        former U.S. Congressman James Oberstar, we reviewed PBGC’s ac ons when
           12           PBGC OFFICE OF INSPECTOR GENERAL
termina ng certain steel plans located in Minnesota. In our second of two reports, we
determined that PBGC complied with its statute when making termina on and benefit
decisions; however, its processes for valida ng par cipant informa on were seriously
flawed.

PBGC Did Not Violate ERISA in Termina on and Benefit Decisions in the Na onal
Steel Plans

PBGC did not violate ERISA or its own policy in termina on and benefit decisions with
respect to the Na onal Steel pension plans. The termina on record for Na onal Steel
provides adequate jus fica on as to why PBGC moved to terminate the Na onal Steel
plans prior to the shutdown of opera ons, which resulted in par cipants’ ineligibility
for shut-down benefits.

While one of PBGC’s missions is to encourage the con nua on of private pension
plans, it also has a legal obliga on to protect the long-run health of the PBGC’s
pension insurance program. In ERISA sec on 4042, PBGC was given the authority to
involuntarily terminate a defined benefit pension plan when any of four statutory
criteria was met:
                                                                                            PBGC moved to
   1. The plan has not met its minimum funding standard;                                    terminate the
   2. The plan will be unable to pay benefits when due;                                  Na onal Steel plans
   3. The reportable event rela ng to certain payments to a substan al owner; or         prior to the shutdown

   4. The possible long-run loss to PBGC with respect to the plan “may reasonably be        of opera ons.
      expected to increase unreasonably if the plan is not terminated.”

While Na onal Steel was a emp ng to reorganize under Chapter 11’s bankruptcy
proceedings (pe on filed on March 6, 2002), PBGC was analyzing the company’s
ability to con nue funding and maintaining the plans. In a December 5, 2002,
memorandum to the Trusteeship Working Group (TWG), PBGC financial analysts
recommended that PBGC seek involuntary termina on of seven of the eight Na onal
Steel plans based on ERISA 4042(a) termina on criteria. This TWG recommenda on
memorandum was supported by much documenta on, including an analysis
performed by a contracted financial analysis firm who specialized in the metals
industry. The TWG concurred in this recommenda on; on December 6, 2002, the PBGC
Director signed and issued a no ce to inform plan par cipants that the pension plans
were terminated on that date.


On May 31, 2003, PBGC entered into a Trusteeship Agreement with Na onal Steel and
set the plans’ termina on date as December 6, 2002. Many courts of appeals have
aﬃrmed PBGC's authority to establish the termina on date. The courts look to see
when the plan par cipants' had no ce that their plan would terminate, thereby
ex nguishing expecta ons of further benefit accruals. In an analogous pension plan
involving steelworkers that was terminated in 2002 with similar circumstances as
Na onal Steel, PBGC took ac on to terminate the plans before shutdown benefits
would accrue, and the Sixth Circuit Court of Appeals upheld PBGC's termina on date.
              SEMIANNUAL REPORT TO CONGRESS           PERIODS ENDING 9/30/12 THROUGH 9/30/13    13
                     Diﬀerences Between LTV and Na onal Steel Termina ons

                     The Minnesota Congressional delega on and the Na onal Steel par cipants point to
                     the near-by LTV Steel companies, who also had defined benefit pension plans that
                     provided shutdown benefits. Shortly before the Na onal Steel termina ons, PBGC did
                     not move to terminate three pension plans sponsored by LTV Steel, though PBGC was
                     aware of LTV's financial condi on and the likelihood LTV would shut down their steel
                     plants. When LTV shut down its plants, it resulted in the accrual of over $200 million in
                     shutdown benefits to those par cipants. This is the crux of the Minnesota
PBGC examines each   Steelworkers complaint that they were treated diﬀerently – and unfairly. However,
plan independently   each pension plan is examined independently, as ERISA sec on 4042 requires PBGC to
   when making
                     examine the par cular facts and circumstances of an individual plan against the
                     statutory criteria to make a decision whether that plan must be terminated.
   termina on
    decisions.
                     Just a few months a er incurring a $200 million unfunded shut down liability for LTV
                     par cipants, PBGC moved swi ly to take termina on ac on prior to the plant
                     shutdowns of Na onal Steel, Republic Technologies Inc. (RTI), and Bethlehem Steel,
                     thereby avoiding the accrual of shutdown benefits for par cipants of these plans.
                     When PBGC learned that these bankrupt steel companies were planning to sell their
                     assets and thereby possibly trigger company shutdowns, with accompanying shutdown
                     benefits, PBGC moved to terminate these plans prior to their asset sales. PBGC’s
                     prompt ac ons in these three steel cases precluded the agency from incurring huge
                     unfunded early re rement benefits for par cipants - close to $350 million in unfunded
                     shutdown liabili es for Na onal Steel, $95 million for RTI, and in excess of $500 million
                     were averted for Bethlehem Steel.


                     We concluded that PBGC acted within its authority in ERISA 4042 in making
                     termina on decisions and establishing plan termina on dates for both the Na onal
                     Steel and LTV Steel pension plans.


                     PBGC’s Par cipant Data and Source Document Audits Provided Unreliable Results

                     PBGC’s eﬀorts to iden fy valid and accurate par cipant informa on necessary for
                     individual benefit calcula ons were unreliable for the seven terminated Na onal Steel
                     pension plans. From 2003-2005, PBGC’s contractor performed and PBGC accepted
                     seven source document audits and seven par cipant data audits for Na onal Steel
                     plans and relied on them to establish the par cipant database used to value the
                     individual par cipant benefits and the liability. However, these 14 audits for the
                     Na onal Steel plans failed to meet applicable professional standards and PBGC
                     protocols. This occurred because PBGC and its contractor did not exercise due
                     professional care in the conduct of these audits.


                     PBGC’s Correc ve Ac ons Ini ated During OIG’s Review

                     As a result of this review, OIG’s previous reviews in 2011 of Na onal Steel and United
                     Airlines pension plans, and other analyses performed by management, the Corpora on
                     has begun making changes throughout the en re benefits opera ons, including
                     processes, organiza onal restructuring, and personnel. To date, PBGC has:

         14          PBGC OFFICE OF INSPECTOR GENERAL
x   Recruited new leadership and staﬀ, introduced addi onal training to enhance staﬀ
     competencies and hired staﬀ with audi ng cer fica ons;

x   Established a new group of specialists in asset evalua on, including the hiring of
     three valua on experts, and contracted with an independent cer fied public
     accoun ng firm to provide addi onal valua on support;

x   Improved opera onal and evalua on policies and procedures;

x   Improved contractor oversight, and formed an independent quality management
     department to sharpen focus on quality and accountability.

We did not make any new recommenda ons to PBGC as a result of this report on the
processing of Na onal Steel Plans’ termina ons, because the Corpora on has taken
steps since 2011 to make significant changes to the en re benefits opera ons to
address previous weaknesses iden fied by OIG. We will con nue to monitor PBGC’s
progress in improving opera ons, establishing and strengthening internal controls, and
conduc ng its oversight ac vi es.

Management Advisory Report: Ensuring the Integrity of Policy Research and
Analysis Department’s Actuarial Calcula ons
OIG MAR-2012-10/PA-12-87 (May 21, 2012)
(http://oig.pbgc.gov/audit/2012/pdf/PA-12-87.pdf)

PBGC is required by ERISA to publish an annual actuarial evalua on of its opera ons
and financial status detailing projec ons of long term exposure for the Single-employer      The quality and
and Mul employer programs. The exposure is created by PBGC’s statutory mission to           accuracy of PBGC
assume responsibility for paying benefits for pension plan par cipants whose plans
                                                                                                  actuarial
terminated without suﬃcient assets to pay their benefits. A whistleblower alleged that
the FY 2010 Exposure Report issued by PBGC contained serious errors. During our            calcula ons are s ll
review of the allega ons, we found that the Policy Research and Analysis Department                at risk.
(PRAD) lacked a quality review process for preparing its reports. Addi onally, PRAD
staﬀ did not ensure that they retained vital documenta on to support the calcula ons
performed in producing the reports. As a result of these serious internal control
weaknesses, the November 10, 2011 issuance of PBGC’s FY 2010 Annual Exposure
Report contained unsupported and incorrect informa on about both the Single and
Mul employer pension programs.

Quality and accuracy of PRAD reports is of great importance. PRAD actuarial
calcula ons and projec ons are also used by policy makers and the public. In addi on
to PBGC’s oversight commi ees in the Senate and House, PBGC is asked to provide
technical assistance to the Congressional Budget Oﬃce and the Joint Commi ee on
Taxa on through actuarial projec ons of the impact of various op ons for statutory
changes related to pensions. Congress uses these actuarial projec ons to determine
whether to pursue par cular legisla on and to score the various proposals for budget
impact. The Government Accountability Oﬃce also uses this informa on. This
influen al informa on is also used by Execu ve Branch stakeholders, including PBGC’s
Board of Directors, the Oﬃce of Management and Budget, and the Department of
Labor.

                SEMIANNUAL REPORT TO CONGRESS            PERIODS ENDING 9/30/12 THROUGH 9/30/13    15
                        PRAD actuarial calcula ons and projec ons are not only reported in the annual
                        exposure reports but are also used in calcula ng the present value of future benefits
                        reported in PBGC’s financial statements. In the FY 2011 audited financial statements,
                        the present value of future benefits was $93 billion. The PRAD Director acknowledged
                        the errors and stated his department did not have policies in place for quality control.
                        PBGC management agreed with the necessary ac ons OIG reported.

                        Congress took note of our report and incorporated OIG recommenda ons into the
                        Moving Ahead for Progress in the 21st Century Act (“MAP-21,” P.L. 112-141, sec on
                        40233(b) and (c)). PBGC commi ed to strengthening and documen ng its quality
                        assurance process, important ac ons for enhancing the integrity of PRAD’s actuarial
                        work. However, PBGC will not be pos ng a corrected FY 2010 Exposure Report on its
                        website, nor did PBGC issue the FY 2011 Exposure Report.

                        Follow-on Audit of PBGC’s Correc ve Ac ons Regarding PRAD

                        On June 12, 2013, we began an audit to evaluate PBGC's correc ve ac ons made in
                        response to OIG recommenda ons in the above-referenced MAR, Ensuring the
                        Integrity of Policy Research and Analysis Department's Actuarial Calcula ons. Our audit
                        also includes a review of PBGC's reported response to Congress as a result of the MAP-
                        21 legisla on. In sec on 40233 of MAP-21, subsec on (b) required PBGC to complete
                        OIG's recommenda ons, including developing quality assurance policies and
                        procedures for all actuarial work performed and conduc ng a records management
                        review. Subsec on (c) required PBGC to submit to Congress a metable for addressing
                        outstanding OIG ac ons related to PRAD. PBGC provided Congress with a lis ng of
                        correc ve ac ons and metable, repor ng all of items were to be completed by June
                        30, 2013. Our fieldwork is complete and we are preparing the dra report.

                        Le er to Congressman Miller: OIG Review of PBGC’s Revalua on of Certain
                        United Airlines Plan Assets (February 6, 2013)

    PBGC should         In response to a request from Congressman George Miller regarding PBGC’s re-
                        valua on of the assets of United Airlines’ (UAL) terminated pension plans, for the
con nue to improve      assets we tested, we concluded that PBGC’s latest contractor had properly valued the
contractor oversight.   assets at the fair market value at the date of plan termina on. Using a dollar unit
                        sampling methodology, we tested a sample of 105 assets to determine whether values
                        were supported by suﬃcient, competent and reliable evidence; whether mathema cal
                        calcula ons suppor ng the asset value were accurate; and whether the asset value
                        was derived from a generally accepted methodology. Our tes ng addressed $6 billion
                        of approximately $21 billion in assets. We did not test all assets, therefore, we
                        provided no assurance on non-tested assets; however we did not iden fy any
                        informa on that would lead us to ques on the valua on for items not tested.


                        We con nue to have concerns regarding PBGC oversight of contractor opera ons and
                        the compliance with contract requirements. This latest eﬀort was PBGC’s third a empt
                        to determine the fair market value of UAL assets. As a result of numerous mee ngs
                        between OIG, PBGC and the CPA firm, we gained a suﬃcient understanding of the
                        contractor’s methodology and iden fied applicable suppor ng documenta on to
                        enable us to perform tests and reach a conclusion regarding the asset valua ons
           16           PBGC OFFICE OF INSPECTOR GENERAL
sampled. Notwithstanding our tes ng results, we believe that PBGC received, reviewed
and accepted reports and work that did not fully comply with contract requirements.
Problems with contractor oversight and acceptance of deliverables which do not meet
contract terms are a recurring issue with PBGC.


Financial Statement Audits: Unqualified Opinion on
Financial Statements and an Adverse Opinion on Internal
Controls

Audit of the Pension Benefit Guaranty Corpora on’s Fiscal Year 2012 and
2011 Financial Statements
AUD-2013-1/FA-12-88-1 (November 15, 2012)
(http://oig.pbgc.gov/audit/2013/pdf/FA-12-88-1.pdf)

Our audit of PBGC’s Single-Employer and Mul employer Program Funds concluded
that the financial statements were presented fairly, in all material respects, in
conformity with accoun ng principles generally accepted in the United States of
America. This unqualified or “clean” opinion on PBGC’s financial statements means              PBGC’s financial
that the auditors were able to conduct suﬃcient tes ng to conclude that PBGC’s                 statements are
financial statement representa on can be relied on; however, it does not mean that
deficiencies and weaknesses were not found. FY 2012 marked the 20th consecu ve                “presented fairly.”
year that PBGC received an unqualified opinion on it financial statements.

The unqualified opinion on the financial statements also includes other informa on
important to understanding PBGC’s financial posi on. By law, PBGC’s Single-Employer
and Mul employer Program Funds must be self-sustaining. However, over a long
course of years, PBGC has operated in a deficit posi on – i.e., its long-term liabili es to
pay the pension benefits to par cipants in terminated pension plans exceed its assets.

    x   As of September 30, 2012, PBGC reported in its financial statements net deficit
         posi ons (liabili es in excess of assets) in the Single-Employer and
         Mul employer Program Funds of $29.14 billion and $5.24 billion, respec vely.


    x   This was an increase in the deficit for the Single-Employer Program of $5.88
         billion and the Mul employer Program of $2.47 billion from the previous
         year’s audited financial statements. While PBGC has been able to meet its
         short-term benefit obliga ons, as noted in our audit report and discussed in
         Note 1 to the financial statements, PBGC management believes that neither
         program at present has the resources to fully sa sfy PBGC’s long-term
         obliga ons to plan par cipants.

As an insurer, PBGC is required to es mate the loss exposure that is reasonably
possible as a result of unfunded vested benefits in not-yet-terminated pension plans.
Our report explained that PBGC es mated the loss exposure that is reasonably possible
for the Single-Employer and Mul employer Programs to be $295 billion and $27
billion, respec vely. For some context of these numbers:


                SEMIANNUAL REPORT TO CONGRESS             PERIODS ENDING 9/30/12 THROUGH 9/30/13    17
                           x   For the Single-Employer Program, PBGC es mated this liability using data for
                                FYs ending in calendar year 2011 from filings and submissions to the
                                government and from corporate annual reports. This es mated liability
                                amount had not been adjusted for economic condi ons through September
                                30, 2012. As a result, the exposure to loss for the Single-Employer Program as
                                of September 30, 2012, could be substan ally diﬀerent from the es mate
                                reported in PBGC’s financial statements.

                           x   For the Mul employer Program, the PBGC es mated that, as of September 30,
                                2012, it is reasonably possible that plans may require future financial
                                assistance of approximately $27 billion. As of September 30, 2011 and 2010,
                                these exposures were es mated at $23 billion and $20 billion respec vely

                       The financial statements audit was conducted by Cli onLarsonAllen LLP under contract
                       with our oﬃce. The work was performed under the OIG’s general oversight.

                       Compliance with Laws and Regula ons

                       Except for PBGC’s failure to determine the fair market value of plan assets at the date
                       of plan termina on, as required by 29 C.F.R. § 4044.41(b), our tests of PBGC’s
                       compliance with selected laws and regula ons did not disclose any instances of
                       reportable non-compliance. However, because the objec ve of the audit was not to
                       provide an opinion on overall compliance with laws and regula ons, no such opinion
                       was expressed.

                       Adverse Opinion on Internal Control

                       For the fourth consecu ve year, we reported that PBGC had not maintained eﬀec ve
                       internal control over financial repor ng (including safeguarding assets) and compliance
                       with laws and regula ons and its opera ons as of September 30, 2012. We con nued
Ineﬀec ve internal     to find deficiencies in the areas of security management, access controls, configura on
                       management, and segrega on of du es. The material weaknesses described below
control let to three
                       were serious enough to result in the expression of an adverse opinion on internal
     material          control. Three material weaknesses were reported in PBGC’s:
   weaknesses.
                           (1) Benefits Administra on and Payment Department (BAPD) Management and
                               Oversight;
                           (2) En ty-wide Security Program Planning and Management; and
                           (3) Access Controls and Configura on Management.

                       We also reported one significant deficiency in integrated financial management
                       systems.

                       Since the me of the first adverse internal control opinion in the FY 2009 financial
                       statements audit report, PBGC has made only minimal progress. Though it has ini ated
                       eﬀorts in the reorganiza on and improvement of its security planning and
                       management through the design and implementa on of a more coherent strategy to
                       manage its informa on systems, these eﬀorts are not complete.




          18           PBGC OFFICE OF INSPECTOR GENERAL
Report on Internal Control Related to the Pension Benefit Guaranty
Corpora on’s Fiscal Year 2012 and 2011 Financial Statements Audit
AUD-2013-2/FA-12-89-2 (November 15, 2012)
(http://oig.pbgc.gov/audit/2013/pdf/FA-12-88-2.pdf)

As part of the annual financial statements audit discussed above, Cli onLarsonAllen
prepared an internal control report to provide more detailed discussions of the specifics
underlying the material weaknesses and significant deficiency that are the basis of the        PBGC is commi ed
adverse internal control opinion in the combined independent auditor’s report on the            to remedia ng
FY 2012 financial statements. PBGC’s response to this internal control report indicated
management’s agreement with and their commitment to addressing each                                material
recommenda on, and to remedia ng the associated material weaknesses.                             weaknesses.

To accomplish its mission and prepare its financial statements, PBGC relies extensively
on the eﬀec ve opera on of the Benefits Administra on and Payment Department
(BAPD) and informa on technology (IT). Internal controls over these opera ons are
essen al to ensure the confiden ality, integrity, and availability of cri cal data while
reducing the risk of errors, fraud, and other illegal acts. The internal control report
provided details about the following material weaknesses reported in the financial
statement audit’s Internal Control opinion:

   1. BAPD Management and Oversight
   2. En ty-wide Security Program Planning and Management
   3. Access Controls and Configura on Management

The report also details the reported significant deficiency: Integrated Financial
Management Systems.

Material Weaknesses

   1. Benefits Administra on and Payment Department Management and Oversight

    BAPD manages the termina on process for defined benefit plans, provides
    par cipant services (including calcula on and payment of benefits) for PBGC-
    trusteed plans, provides actuarial support for PBGC, and carries out PBGC's
    responsibili es under se lement agreements. BAPD has several dis nct divisions
    including Trusteeship Processing Divisions (TPDs) and the Actuarial Services Division
    (ASD).

    BAPD con nued to have serious control weaknesses throughout the department.
    These weaknesses are a ributed to BAPD’s management and oversight over the
    processes needed to calculate and value par cipant’s benefits and the related
    liabili es, as well as to value plan assets. Such weaknesses increased significant risks
    to PBGC’s opera ons, including accurate calcula on of plan par cipants’ benefits,
    accurate financial repor ng and compliance with prescribed laws and regula ons.

    Calcula on of the Present Value of Future Benefits Liability

    During FY 2012, BAPD made errors in calcula ng the PVFB liability for some
    par cipants. These calcula on errors were primarily due to two reasons:

             SEMIANNUAL REPORT TO CONGRESS             PERIODS ENDING 9/30/12 THROUGH 9/30/13       19
                       (1) the actuarial liability factors were applied to incorrect or incomplete data
                           inputs, and

                       (2) a plan's par cular benefit provisions were not suﬃciently reviewed to correctly
                       calculate individual par cipants' present value of future benefits (PVFB) liability.

                       Specifically, BAPD used actuarial assump ons because the best available data had
                       not been updated into the applicable informa on system. For example, in some
                       instances, an actual date of birth was used to calculate the par cipant’s specific
                       benefit but the es mated date of birth was entered in the informa on system,
                       causing the liability to be incorrect. In other instances, ASD incorrectly calculated
                       certain liabili es of the par cipants using a single life annuity benefit plan
                       provision instead of the joint and survivorship benefit.

                       In addi on, during our June 30 interim tes ng, we iden fied an error in the
                       calcula on of the par cipant liability for one large plan related to one of the plan’s
                       unique provisions. Management was aware of this unique plan provision; however
                       management was not aware that the PVFB system was calcula ng the benefit
                       incorrectly. Using a sta s cally-based sampling technique, we noted
                       approximately 13% of the samples tested in which the liability calculated for a plan
                       par cipant was either overstated or understated. The projected value of the error
                       to the en re PVFB liability of approximately $106 billion as of September 30, 2012,
                       had an es mated range of approximately $507 million understatement to $875
                       million overstatement and a point es mate of $185 million overstatement.

                       We also noted deficiencies in BAPD’s maintenance of underlying documenta on
                       used to support the calcula on of the PVFB. During our tes ng at June 30 and
                       September 30, BAPD was not able to provide the documenta on needed to
                       support liability calcula ons for some samples, nor was the documenta on
                       maintained in a single systema c manner. Herculean eﬀorts by BAPD and other
                       PBGC departments were required to locate and provide the documenta on
                       needed for audit tes ng. The lack of appropriate documenta on results in limited
                       physical and financial repor ng controls, and could lead to improper benefit
                       payment and par cipant liability calcula ons by PBGC. Consequently, we could not
      BAPD             determine whether the benefits or the associated liability was calculated properly
                       for those selected samples at June 30 and September 30.
 documenta on
problems con nue.      Last year we reported several deficiencies in BAPD related to documenta on,
                       including the need to require archival of source documents, implementa on of
                       controls to ensure monitoring and enforcement of procedures requiring document
                       maintenance, and to improve the training of persons tasked with calcula ng and
                       reviewing benefit determina ons. These deficiencies have not yet been corrected.

                       Because of errors in the liability calcula ons and the lack of suppor ng
                       documenta on, PBGC is at risk for inaccurately valuing the liabili es reported in its
                       financial statements. Also, these deficiencies could impact PBGC management’s
                       ability to provide meaningful and accurate informa on to its key stakeholders such
                       as the plan par cipants, the Board, Congress, and OMB.



         20         PBGC OFFICE OF INSPECTOR GENERAL
    Valua on of Plan Assets and Benefits

    Although BAPD has undertaken eﬀorts to revalue assets for certain pension plans
    trusteed by PBGC, internal control weaknesses in this area con nue to merit focus.
    The fair market value of a pension plan’s assets at the date of plan termina on
    (DoPT) is an essen al factor needed to determine the re rement benefit amounts
    owed to plan par cipants. The lack of BAPD’s eﬀec ve oversight and monitoring of
    contracted reviews over asset valua ons con nued to pose significant risks to the
    par cipants’ benefit determina ons.

    During FY 2012, BAPD hired contractors to revalue the plan assets for some large
    plans which resulted in addi onal benefits owed to certain plan par cipants. BAPD
    management stated that a risk analysis was underway to determine which
    addi onal pension plans may have asset valua on misstatements and pose the
    greatest risks to the par cipants’ benefit payments. This risk analysis was not
    complete as of September 30, 2012. In addi on, management had not finalized a             PBGC is at risk for
    quality control review process to verify and validate the sa sfactory comple on of
    contracted DoPT plan asset valua on audits, and to establish a detailed process to       inaccurately valuing
    ensure the consistent applica on of a methodology to determine the fair market             plan liabili es.
    value of plan assets at DoPT as of September 30, 2012.

    Addi onal weaknesses iden fied as part of the prior year financial statement audit
    stemmed from BAPD’s inadequate management of contractors, a condi on that
    con nues to exist. As previously discussed, these contractors perform cri cal
    func ons such as the valuing of plan assets. Services provided by contractors
    should be subject to an eﬀec ve system of internal controls. Management has not
    always fully considered the exposure and risk that contractors introduce into its
    environment. BAPD intended to develop correc ve ac on plans in FY 2012 to focus
    on fundamental issues such as internal controls, processes, contractor oversight,
    training and staﬀ competencies. However, the development of these plans was s ll
    in progress at September 30, 2012.


Two of the material weaknesses related to informa on technology (IT). IT con nued
to be a challenge for management. The safeguarding of PBGC’s systems and data is
essen al to protect PBGC’s opera ons and mission. The OIG and others have
consistently iden fied serious internal control vulnerabili es and systemic security
control weaknesses in the IT environment over the last several years. PBGC’s delayed
progress in mi ga ng these deficiencies at the root-cause level con nued to pose
increasing and substan al risks to PBGC’s ability to carry out its mission during FY 2012.
Due to the persistent nature and extended me required to mi gate such
vulnerabili es, addi onal risks threaten PBGC’s ability to safeguard its systems. These
risks include technological obsolescence, inability to execute correc ve ac ons,
breakdown in communica ons, and poor monitoring.

2. En ty-wide Security Program Planning and Management – In prior years, we
   reported that PBGC’s en ty-wide security program lacked focus and a coordinated
   eﬀort to adequately resolve control deficiencies. An en ty-wide informa on
   security management program is the founda on of a security control structure and
   a reflec on of senior management’s commitment to addressing security risks. The
   security management program should establish a framework and con nuous cycle
               SEMIANNUAL REPORT TO CONGRESS             PERIODS ENDING 9/30/12 THROUGH 9/30/13     21
                          of ac vity for assessing risk, developing and implemen ng eﬀec ve security
                          procedures, and monitoring the eﬀec veness of these procedures.

                          Deficiencies persisted in FY 2012, which prevented PBGC from implemen ng
                          eﬀec ve security controls to protect its informa on from unauthorized access,
                          modifica on, and disclosure. Without a well-designed and fully implemented
     PBGC’s IT            informa on security management program, there is increased risk that security
                          controls are inadequate; responsibili es are unclear, misunderstood, and
environment has not       improperly implemented; and controls are inconsistently applied. Such condi ons
   yet addressed          may lead to insuﬃcient protec on of sensi ve or cri cal resources and
security weaknesses.      dispropor onately high expenditures for controls over low-risk resources.

                          x   NIST SP 800-53, Recommended Security Controls for Federal Informa on
                               Systems, iden fies 172 controls within 17 security control families, of which
                               PBGC iden fied 130 as their common security controls. As of the end of FY
                               2012, PBGC had not documented the details of the specific ac ons needed to
                               complete and confirm the design, implementa on, and opera ng eﬀec veness
                               of these iden fied common security controls.

                          x   Weaknesses in PBGC’s infrastructure design and deployment strategy for
                               systems and applica ons adversely aﬀected its ability to eﬀec vely implement
                               common security controls across its systems and applica ons. While PBGC had
                               taken a number of correc ve ac ons, they were not completed and
                               implementa on tested by year-end.

                          x   Informa on security policies and procedures were not fully disseminated and
                               implemented. PBGC made progress in providing annual security awareness
                               training for staﬀ through an online informa on security awareness module;
                               however, security incident response and role-based training is s ll in
                               development.

                       3. Access Controls and Configura on Management – We reported that PBGC’s
                          decentralized approach to system development, system deployment, and
                          configura on management created an environment that lacked a cohesive
                          structure in which to implement controls and best prac ces. Weaknesses in the IT
                          environment contributed to deficiencies in system configura on, segrega on of
                          du es, role-based access controls, and monitoring.

                          Access controls should be in place to consistently limit and detect inappropriate
                          access to computer resources (data, equipment, and facili es); and monitor access
                          to computer programs, data, equipment, and facili es. These controls protect
                          against unauthorized modifica on, disclosure, loss, or impairment. Such controls
                          include both logical and physical security controls to ensure that federal
                          employees and contractors will be given only the access privileges necessary to
                          perform business func ons.

                          Inappropriate access and configura on management controls do not provide PBGC
                          with suﬃcient assurance that financial informa on and financial assets are
                          adequately safeguarded from inadvertent or deliberate misuse, fraudulent use,
                          improper disclosure, or destruc on.

          22           PBGC OFFICE OF INSPECTOR GENERAL
Significant Deficiency

The Internal Control Opinion also determined that the lack of an Integrated Financial
Management System was a con nued significant deficiency. As reported in prior year
audits, the risk of inaccurate, inconsistent, and redundant data was increased because
PBGC lacked a single integrated financial management system. The system could not
be readily accessed and used by financial and program managers without extensive
manipula on, excessive manual processing, and ineﬃcient balancing of reports to             Progress made to
reconcile disbursements, collec ons, and general ledger data.
                                                                                            integrate PBGC’s
PBGC was working on several projects to more fully integrate its financial                      financial
management system that were not yet completed in FY 2012:                                    management
                                                                                                system.
x   In January 2013, PBGC planned to implement the Trust Accoun ng and FY File
     System (TAS) a er comple ng the TAS user acceptance tes ng. TAS would replace
     certain applica ons and have automated interfaces with others. PBGC has also
     iden fied future capabili es in its financial management “to-be” architecture,
     including a procurement system and an online budge ng system.

x   In December 2013, the Premium and Prac oner System (PPS) will be fully
     integrated with the Oracle eBusiness Suite COTS solu on used for PBGC's
     Consolidated Financial Systems, and will replace the current premium accoun ng
     system.

Because PBGC has not fully integrated its financial systems, PBGC’s ability to accurately
and eﬃciently accumulate and summarize informa on required for internal and
external financial repor ng is impacted.

Audit of the Pension Benefit Guaranty Corpora on’s
Fiscal Year 2012 and 2011 Special-Purpose Financial Statements
AUD-2013-4/FA-12-88-4 (November 16, 2012)
(http://oig.pbgc.gov/audit/2013/pdf/FA-12-88-4.pdf)

As part of the annual financial statements audit, Cli onLarsonAllen also audited the
PBGC Fiscal Year 2012 and 2011 Special-Purpose Financial Statements. The auditors
concluded that the special-purpose financial statements and accompanying notes
presented fairly, in all material respects, the financial posi on of PBGC as of September
30, 2012 and 2011, and its net costs and changes in net posi on for the years then
ended in conformity with accoun ng principles generally accepted in the United States
of America and that the presenta on was consistent with requirements of the U.S.
Department of the Treasury.

PBGC prepares special-purpose financial statements to provide financial informa on to
the Treasury and GAO through the Government-wide Financial Repor ng System for
GAO’s use in preparing and audi ng the Financial Report of the U.S. Government. The
special purpose report is not intended to be a complete presenta on of PBGC’s
financial statements. Rather, these special purpose financial statements link PBGC’s
audited financial statements to the Financial Report of the United States Government.



              SEMIANNUAL REPORT TO CONGRESS            PERIODS ENDING 9/30/12 THROUGH 9/30/13     23
                      Fiscal Year 2012 Financial Statements Audit Management Le er
                      AUD-2013-8/FA-12-88-7 (May 14, 2013; not publicly available)

                      The annual financial statements audit process led to the iden fica on of certain less
                      significant ma ers related to PBGC internal control and opera ons that were not
                      included in the internal control report (AUD-2013-2/FA-12-88-2), discussed above. The
 PBGC’s Special       management le er summarized findings that resulted in 10 new recommenda ons
Purpose Financial     regarding those less significant ma ers and reported on the status of 48
 Statements are       recommenda ons that remain open from prior years’ management le er
                      recommenda ons.
“presented fairly.”
                      While these management le er findings and recommenda ons were not material
                      control issues and were not material in dollar value, when considered in context of
                      PBGC’s financial statements, they are nonetheless important because they are
                      intended to improve PBGC’s internal control or result in other opera onal
                      improvements. The findings with new recommenda ons address areas such as:

                         1. Personal Interest Conflict – As reported in previous years, some employees
                            could view and edit informa on for their rela ves in a number of PBGC IT
                            systems;

                         2. Benefit Payment Process for Deceased par cipants – PBGC accounted for
                            overpayment recoveries of death benefits on a cash basis which is inconsistent
                            with generally accepted accoun ng principles and the Corpora on’s stated
                            basis of accoun ng; and

                         3. Par cipant Data Review – PBGC did not sample small plans to perform a
                            database quality assurance as required and did not follow prescribed
                            procedures for construc ng the par cipant database for a large plan (more
                            than 500 par cipants).

                         In responding to the management le er, PBGC leadership agreed with the
                         recommenda ons and provided planned correc ve ac ons and es mated
                         comple on dates.

                      Audit of PBGC’s FY 2012 Compliance with the Implementa on of
                      the Improper Payments Act
                      AUD-2013-05/ PA-12-92 (March 15, 2013)
                      (http://oig.pbgc.gov/audit/2013/pdf/PA-12-92.pdf)

                      As required by the Improper Payments Informa on Act (IPIA) (P.L. 107-300), as
                      amended by the Improper Payments Elimina on and Recovery Act (IPERA) (P.L. 111-
                      204), we conducted an audit of PBGC’s compliance with IPIA requirements. We
                      determined that PBGC has ins tuted a systema c method to review its programs and
                      ac vi es for improper payments and has generally complied with IPIA implemen ng
                      requirements. While we concluded that PBGC was in compliance with IPIA
                      requirements, we included a General Comment for PBGC management’s considera on
                      regarding the clarity of PBGC’s presenta on of the results of their tes ng of benefit
                      payments in Appendix A of the 2012 PBGC Annual Report.


          24          PBGC OFFICE OF INSPECTOR GENERAL
PBGC reported $24.8 million in improper payments, which lacked documenta on for
benefit payments; however, PBGC did not explain that the underlying documenta on
was not fully tested. Without such an explana on, users of the report may believe this
amount represents the es mated improper payments resul ng from documenta on
issues for the en re benefit payment stream. We note that the 2012 Appendix A does
not discuss PBGC’s request to OMB for using its specific approach and OMB’s
subsequent approval to carve-out underlying documenta on tes ng, but rather states
only:                                                                                      PBGC complied with
                                                                                              the Improper
        PBGC updated the payment defini ons and tes ng approaches to
        be er focus on key payment processing elements. In contrast, in its FY                  Payments
        2011 Annual Report, PBGC highlighted the significant lack of                        Informa on Act.
        documenta on as a legacy documenta on issue, but did not disclose
        the magnitude of the problem. However, the eﬀect of the “carve-out”
        was to eliminate the vast majority of the documenta on issues, a fact
        that is not clear from PBGC’s presenta on that provides a dollar value
        for errors due to lack of documenta on.

We believe that the disparity in the level of informa on disclosed between both fiscal
years and, in par cular the lack of details with respect to the tes ng methodology
carve-out that occurred in FY 2012, could mislead readers. PBGC can strengthen its
repor ng by defining error types in greater detail and specifically iden fying any
changes in tes ng methodologies. Details such as tes ng methodology, the approval to
OMB, and/or the correla ng factors for repor ng improper payments with lack of
documenta ons would improve the Corpora on’s IPIA repor ng.



Informa on Technology Audits and Follow-up
FY 2012 Vulnerability Assessment and Penetra on Tes ng Report
EVAL 2013-7/ FA 12-88-6 (May 16, 2013)
(http://oig.pbgc.gov/pdfs/FA-12-88-6.pdf)

This restricted disclosure report detailed the results of Cli onLarsonAllen’s assessment
of the PBGC informa on security infrastructure. This review was conducted to find
technical weaknesses in PBGC’s computer systems that may allow employees or
outsiders to cause harm to and/or impact PBGC”s business processes and informa on.
We found that PBGC has followed through on its commitment to address security
vulnerabili es. PBGC’s informa on security had improved; the number of cri cal and
high vulnerabili es has significantly declined by more than 65%. However, the number
of medium vulnerabili es has increased and several cri cal and high risk weaknesses
have repeated from prior years. Moreover, many PBGC systems are not adequately
patched or password protected. PBGC is heading in the right direc on but much work
remains.




               SEMIANNUAL REPORT TO CONGRESS           PERIODS ENDING 9/30/12 THROUGH 9/30/13    25
                     FY 2012 Federal Informa on Security Management Act (FISMA) Submission to
                     the Oﬃce of Management and Budget
                     LTR 2013-3/FA-12-88-3 (November 14, 2012)
                     (http://oig.pbgc.gov/pdfs/FA-12-88-3.pdf)

                              and

                     Fiscal Year 2012 Federal Informa on Security Management Act (FISMA)
                     Independent Evalua on Report
                     EVAL -2013-6/FA-12-88-5 (May 1, 2013)
                     (http://oig.pbgc.gov/pdfs/FA-12-88-5.pdf)

                     The Federal Informa on Security Management Act (FISMA) requires federal en es to
                     report annually to the Oﬃce of Management and Budget (OMB) the state of their
                     informa on security. FISMA also requires Inspectors General to conduct independent
PBGC’s IT controls   annual evalua ons of agencies’ security programs and prac ces and to report the
 not yet mature.     results to OMB. In conjunc on with the financial statement audit, we contracted with
                     Cli onLarsonAllen to perform, under OIG oversight, an independent evalua on to
                     assess the eﬀec veness of PBGC’s informa on security program and prac ces and to
                     determine compliance with the requirements of FISMA and related informa on
                     security policies, procedures, standards, and guidelines. On November 15, 2012, we
                     transmi ed the FISMA template report to OMB. Therea er, we prepared a narra ve
                     report on PBGC’s progress on correc ng prior years’ recommenda ons and to provide
                     addi onal informa on on the results of our review of PBGC’s informa on security
                     program.

                     Overall, we determined that IT con nues to be a challenge for management. PBGC’s
                     delayed progress in mi ga ng deficiencies at the root-cause level con nued to pose
                     increasing and substan al risks to PBGC’s ability to carry out its mission during FY 2012.
                     Due to the persistent nature and extended me required to mi gate such
                     vulnerabili es, addi onal risks threaten PBGC’s ability to safeguard its systems. These
                     risks include technological obsolescence, inability to execute correc ve ac ons,
                     breakdown in communica ons, and poor monitoring. Some issues reported this year
                     are:

                     x   A PBGC server was incorrectly configured. All users had read and write access to
                          local storage drive and a user placed Personally Iden fiable Informa on on the
                          server, which permi ed unauthorized users access to sensi ve informa on.

                     x PBGC had not completed the security categoriza on of all of its informa on
                        systems.
                     x PBGC’s Plan of Ac on and Milestone process was not mature and eﬀec ve.

                     We concluded PBGC has made some progress by con nuing the implementa on of its
                     FY 2010 Enterprise Correc ve Ac on Plan (CAP), and introducing addi onal repor ng
                     controls to track progress. The Corpora on has also made progress in addressing the
                     design of its infrastructure, account management, enterprise security management,
                     and configura on management, but the control processes have not reached a level of
                     maturity to prove their eﬀec veness.



         26          PBGC OFFICE OF INSPECTOR GENERAL
FY 2011 Federal Informa on Security Management Act (FISMA) Submission to
the Oﬃce of Management and Budget
LTR 2012-3/FA-11-82-3 (November 14, 2012)
(http://oig.pbgc.gov/pdfs/FA-11-82-3.pdf)

        and

Fiscal Year 2011 Federal Informa on Security Management Act (FISMA)
Independent Evalua on Report
EVAL-2012-9 / FA-11-82-7 (May 11, 2012)
(http://oig.pbgc.gov/audit/2012/pdf/FA-11-82-7.pdf)

We submi ed the template report to OMB, no ng that PBGC’s systemic security
control weaknesses con nued to pose a substan al and increased risk to PBGC’s ability
to carry out its mission during FY 2011. In a separate narra ve report, we evaluated
the Corpora on’s implementa on of its mul -year correc ve ac on plan (CAP) to
address IT security issues at the root cause level. The extended me and the lack of
meaningful progress in PBGC’s CAP to correct previously reported deficiencies
introduced addi onal risks. These include technological obsolescence, inability to
execute correc ve ac ons, breakdown in communica ons and poor monitoring. PBGC
management has recognized that these weaknesses will con nue to pose a threat to
its IT environment while correc ve ac ons are being implemented. Our primary            Systema c IT control
concern, as expressed in our FISMA report, is whether PBGC will be able to implement
interim correc ve ac ons in a way that will ensure that fundamental security            weaknesses pose a
weaknesses do not worsen as the CAP is being implemented. PBGC’s management                risk to PBGC.
stated their agreement with 9 of the 10 recommenda ons in the FY 2011 report and
subsequently remediated the remaining recommenda on.

Alert Memorandum: Compromise of Informa on Security

We issued an Alert Memorandum to the Chief Informa on Oﬃcer (CIO) regarding the
disclosure of PBGC documents and emails when a senior PBGC leader had transmi ed
this informa on to his personal email and that email account was hacked. Overall, we
determined that PBGC did not follow the agency incident response policy in
inves ga ng and mi ga ng the disclosure of sensi ve PBGC documents and
emails. The incident was not properly categorized or evaluated to fully assess the
impact to agency opera ons; nor did PBGC conduct an evalua on of the impact for
those aﬀected. As a result of our Alert Memorandum, PBGC evaluated all of the
documents that were disclosed and, when necessary, contacted those aﬀected
individuals via cer fied le ers. PBGC has also agreed to re-evaluate the agency
incident handling policies and procedures; we will closely monitor PBGC’s modifica on
of agency policy as a result of this incident.

Con nued Communica ons between OIG and OIT

OIG performs con nuous oversight within various aspects of PBGC’s Informa on
Technology program. Specific examples include:

x   OIG receives updates every 90 days on PBGC’s recently implemented vulnerability

               SEMIANNUAL REPORT TO CONGRESS          PERIODS ENDING 9/30/12 THROUGH 9/30/13   27
                               and patch management program. As a result of OIG findings and
                               recommenda ons, PBGC dedicated a team responsible for the oversight and
                               mi ga on of cri cal and high vulnerabili es. Since OIG’s first mee ng more than a
                               year ago, the Corpora on has made notable progress in mi ga ng the most
                               serious vulnerabili es and has now begun to focus on medium vulnerabili es and
                               documenta on of risk acceptance, when applicable.

                          x   OIG meets quarterly with the Chief Informa on Oﬃcer (CIO) to discuss the
                               agency’s cloud vision moving forward. We acknowledge the CIO’s understanding
OIG meets with OIT             and recogni on that the OIG needs to be involved early in the process as PBGC
to monitor progress            considers transferring resources to the cloud. Among the needs that PBGC must
in this high risk area.        address when considering movement to the cloud are the OIG's right of access to
                               conduct audits and inves ga ons and ensuring PBGC has implemented
                               appropriate controls to ensure the protec on of sensi ve data and email
                               communica ons.


                          OIG appreciates PBGC’s eﬀorts in addressing the persistent vulnerabili es that exist in
                          the cyber-security world and looks forward to con nued collabora ve mee ngs.



                          Inves ga ons
                          Fraud Related to Pension Benefits

                               Plan Par cipant Receives Over $25,000 in Back Pay

                               An inves ga on ini ated from a Hotline complaint from a Delta Pilot Re rement
                               Plan par cipant iden fied an internal control weakness in PBGC’s processing of
                               large back payments. According to the par cipant, he received a Benefit
                               Determina on Le er from one of PBGC’s Field Benefit Administrators (FBAs)
                               sta ng he was due a large back payment. The le er iden fied two op ons to
                               receive payment: comple ng a Lump Sum Applica on or wai ng 30 days a er the
                               date of the le er to receive the payment automa cally.

                               A er wai ng over a year for payment, the par cipant contacted the OIG Hotline
                               for assistance. The OIG inves ga on determined that PBGC had not established
                               eﬀec ve controls to track par cipants who received a lump sum benefit le er. As a
                               result of the OIG inves ga on, the par cipant received his back payment with
                               interest and the FBA ins tuted a Correc ve Ac on Plan to improve large back
                               payment processing procedures.

                               A empted Fraud Against PBGC Account

                               PBGC OIG became aware of five possibly related a empts to nego ate fraudulent
                               checks on a PBGC bank account. The checks contained correct bank rou ng and
                               account numbers for a PBGC account used to transmit payments for Missing
                               Par cipants. As a result of the inves ga on, a new Missing Par cipant account has



            28            PBGC OFFICE OF INSPECTOR GENERAL
  been established. PBGC did not suﬀer a loss from these fraud a empts. We
  referred this ma er to the United States Secret Service for further inves ga on.

Management Advisory Reports

  Weaknesses in Review of Labor-Hour Contract Invoices
  As part of our proac ve ini a ve on poten al procurement fraud, we reviewed
  the labor hours invoiced by an actuarial services contractor that provided services
  to a PBGC department. Because labor-hour contracts pose a great risk across the
  government when not properly monitored, it is very important that internal
  controls be in place to monitor the hours worked, validate the hours billed, and
  assess the quality of the work produced.

  The review iden fied several weaknesses in the department’s invoice review
  prac ces. Our review of the contractor resulted in the issuance of a management
  advisory to strengthen internal controls by ensuring the eﬀec ve review of
  invoices.


  Errors in Weirton Steel Par cipant Data Audit Similar to Those in Na onal
  Steel

  The OIG received a Hotline inquiry from par cipants in the Weirton Steel
  Corpora on's (Weirton) pension plan as a result of our audit report that found
  PBGC's Na onal Steel Corpora on pension plan audits were seriously flawed. We
  reviewed the July 11, 2005 Weirton Par cipant Data Audit (PDA) and Database             The contractor's
  Construc on report that had been issued to PBGC by the same PBGC contractor
  who did sub-standard work in the Na onal Steel plans. The main objec ve of the           report on the
  PDA was to verify par cipant records and ensure the reliability of the PBGC’s           reliability of the
  constructed database for purposes of calcula ng the Weirton par cipants’              par cipant database
  benefits.
                                                                                            was flawed.

  The contractor's report detailed a comparison of a sta s cal sample of Weirton
  par cipant data against PBGC's par cipant database. The OIG review of the report
  found that it contained incorrect computa ons of the sta s cal sampling results.
  As a result, the OIG review established that the contractor's report on the
  reliability of the par cipant database was flawed. One significant and elementary
  error included the contractor’s failure to move the decimal points two places to
  the right when conver ng decimals to percentages. This resulted in a gross
  understatement of the actual error rates determined by the sta s cal sampling.


  Had the contractor computed the correct error rates, their next step should have
  been to determine the significance of the errors and possibly retest a larger
  sample of par cipant data for accuracy. However, due to the misplaced decimal
  points, the errors rates fell within an acceptable established range and the
  contractor took no further ac on. PBGC’s review of the contractor’s work did not
  catch the errors, and the flawed work was accepted.



             SEMIANNUAL REPORT TO CONGRESS            PERIODS ENDING 9/30/12 THROUGH 9/30/13   29
                           By relying on the erroneous error rates, the contractor reached the poten ally
                           false conclusion that the par cipant database was accurate and complete, and
                           PBGC relied on the work. The OIG referred the issue to PBGC for their evalua on of
                           the reliability of the par cipant database to ensure that the Weirton par cipants
                           are currently receiving or will receive the benefits to which they are en tled.


  PBGC employees        Correc ve Ac ons Resul ng from Inves ga ons
  repaid subsidies
                           PBGC Strengthens Transporta on Subsidy Program and Requires
fraudulently received
                           Repayment of Money
    and incurred
     penal es.             As reported in a prior Semiannual Report to Congress, the OIG inves gated two
                           federal employees who fraudulently received more than $10,000 in parking
                           subsidies/benefits. As a result of our inves ga on we issued a report for
                           management to take correc ve ac on with respect to the employees and also OIG
                           issued a Management Advisory Report with suggested ac ons to clarify and
                           strengthen PBGC’s transporta on subsidy direc ve, including adding a statement
                           that viola ons of the program will be referred to the OIG. On August 22, 2012,
                           PBGC issued a revised direc ve that addressed our Management Advisory. In late
                           2012, PBGC also required the two employees who wrongfully received the
                           subsidies to repay them, as well as imposed other sanc ons.




            30          PBGC OFFICE OF INSPECTOR GENERAL
Other OIG Statutory Repor ng

  Access to Informa on

  The Inspector General Act permits the Inspector General to have unfe ered access
  to all agency records, informa on, or assistance when engaged in an inves ga on
  or audit. Whenever access to requested records, informa on, or assistance is
  unreasonably refused or not provided, the Inspector General must promptly report
  the denial to the agency head. We have not been denied access nor has assistance
  been unreasonably refused during this repor ng period.

  Management Decisions

  There were no management decisions of a material nature with which we did not
  agree. There were no significant revised management decisions.

  Audit Peer Review

  Government Audi ng Standards require each audit organiza on to obtain an
  external review of its system of quality control every three years and make the
  results publicly available. In an external peer review of the PBGC OIG’ s audit
  program for the year ending September 30, 2012, we received the peer review
  ra ng of “pass with deficiencies.” The “pass with deficiencies” ra ng means that
  the external reviewer determined that our system of quality control was suitably
  designed and our adherence to this system provided reasonable assurance that we
  performed work and reported results in accordance with professional standards in
  all material respects with the excep on of a certain deficiency or deficiencies that
  are described in the report. A copy of this peer review is found at our website:
  h p://oig.pbgc.gov/pdfs/PBGC_Peer_Review_Report_2013.pdf .


  Review of Proposed Statutory and Regulatory Changes

  A major responsibility of the OIG under the Inspector General Act is the
  independent review of PBGC-proposed changes to laws and regula ons. There
  were no PBGC statutory proposals during these periods. PBGC issued two
  proposed rules during the most recent repor ng period: in April 2013, with
  respect to reportable events, and in July 13 with respect to premiums. OIG
  reviewed and commented on the proposed rules in prior repor ng periods.




             SEMIANNUAL REPORT TO CONGRESS             PERIODS ENDING 9/30/12 THROUGH 9/30/13   31
                 THIS PAGE INTENTIONALLY LEFT BLANK




32   PBGC OFFICE OF INSPECTOR GENERAL
Other Oﬃce of Inspector
General Ac vi es
CIGIE Award to the Mission-Cri cal Pension Plan
Processing Evalua on Team
The Council of Inspectors General on Integrity and Eﬃciency recognized the PBGC
OIG Mission-Cri cal Pension Plan Processing Evalua on Team with an award for
excellence at the annual CIGIE Awards ceremony in early October 2012. This
award recognized the work our oﬃce accomplished in our review of PBGC’s                  OIG team recognized
processing of the Na onal Steel and United Airlines termina ons, in par cular              by the Inspector
the valua ons of the plans’ assets. The team determined that PBGC did not                General community.
follow its own protocols; it accepted and paid for contractor work purpor ng to
be "audits" intended to iden fy and establish the fair market value of plan assets
that contained obvious errors and omissions. How well a terminated pension
plan is funded has a direct impact on PBGC's determina on of the par cipants'
pension benefits. Because of the systemic nature of the issues, (1) neither PBGC
nor the 1.5 million par cipants in terminated pension plans can be assured that
their plans' assets have been properly valued and pension benefits properly
determined, and (2) PBGC received no value for the $26 million of funds paid to
the contractor.

Because of the pervasiveness of errors, the Corpora on has ini ated a top-to-
bo om strategic review of the department conduc ng the post-termina on
processes. A na onal consul ng firm was hired to perform a review of the
structure, processes and procedures. PBGC has also ini ated re-valua ons of the
plan assets of the largest 10 plan termina ons and is developing a plan for
assessing the impact on all other previously terminated plans.

Training Cost Savings for IG Community
We provided training and training space to other OIGs and CIGIE at li le or no
cost, including:
   x   We sponsored training oﬀered by the Ins tute of Internal Auditors,
        “Assessing the Relevance and Reliability of Performance Informa on,”
        onsite for our staﬀ and oﬀered training slots to OIGs un l class capacity
        was reached. This on-site training allowed 18 OIGs to obtain 16 hours of
        con nuing professional educa on (CPE) credits at a significantly reduced
        cost.

   x   We paid for and hosted the Associa on of Government
        Accountants’ (AGA) training, “Cer fied Government Financial Manager,”
        oﬀering this opportunity to other OIGs. In addi on to all of our audit
        staﬀ, ten staﬀ from other OIGs par cipated in this training, obtaining 48
        CPEs at no cost to their own agency. This course and significant study
               SEMIANNUAL REPORT TO CONGRESS           PERIODS ENDING 9/30/12 THROUGH 9/30/13   33
             materials will assist par cipants in studying to obtain the AGA’s professional
             cer fica on as a Government Financial Manager.

        x   We arranged for the OIG community to use PBGC’s state-of-the-art training
             facili es, allowing CIGIE to conduct mul ple training classes, such as the 2-
             week “Introductory Auditor Training” and “Leading Edge,” and mee ngs such
             as the quarterly CIGIE IT Commi ee Mee ng and an AIGI Conference.


     External and Internal Professional Ac vi es

     Various staﬀ members par cipated in external and internal professional ac vi es.
     Examples include:

        x   Then-IG Rebecca Anne Ba s par cipated in the Council of Inspectors General
             for Integrity and Eﬃciency (CIGIE) that promotes collabora on on integrity,
             economy, and eﬃciency issues that transcend individual agencies. Ms. Ba s
             served as the chair of the CIGIE Informa on Technology Commi ee, which
             Developed CIGIE’s Quality Standards for Digital Forensics, represented the IG
             community and met with the Federal Acquisi on Regulatory Council in the
             development of proposed language regarding IG access to data in a cloud
             environment, worked with the Department of Homeland Security to refine the
             Federal Informa on Security Management Act metrics for the OIGs and
             conducted a survey of the CIGIE community related to OIG’s penetra on
             tes ng usage, tools, staﬃng, training, as well as future needs. As IT commi ee
             chair, she served on the CIGIE Execu ve Council and was also a member of the
             CIGIE Audit Commi ee.

        x   Assistant IG for Inves ga ons (AIGI) Aaron R. Jordan served as Chair of the
             CIGIE Commi ee of Assistant Inspectors General for Inves ga on, a
             subcommi ee of the CIGIE Inves ga ons Commi ee, through September 30,
             2013. The AIGI Commi ee serves as a forum for internal discussion and a
             channel for sugges ons, issues and concerns that aﬀect the OIG inves ga ons
             community as a whole. The AIGI Commi ee chairperson and vice chairperson
             serve as ex-oﬃcio members of the CIGIE Inves ga ons Commi ee. In addi on
             to their regular quarterly mee ngs, the AIGI annual conference was held on
             April 23-24, 2013 at the headquarters of the Environmental Protec on Agency.

        x   Audit Manager Joseph Marchowsky serves on the Accoun ng and Audit Policy
             Commi ee, which is a permanent commi ee established by the Federal
             Accoun ng Standards Advisory Board. Federal accoun ng standards and
             financial repor ng play a major role in fulfilling the government’s duty to be
             publicly accountable. The AAPC issues technical releases related to exis ng
             Federal accoun ng standards. AAPC’s technical releases are a form of
             authorita ve guidance for generally accepted accoun ng principles for Federal
             en es.

        x   IT Audit Manager Jarvis Rodgers con nued par cipa on in the FY 2014
             Inspector General Focus Group to refine and discuss the OIG Federal
             Informa on Security Management Act (FISMA) metrics. Team members across
             the IG community previously received a CIGIE award for par cipa on in this
34   PBGC OFFICE OF INSPECTOR GENERAL
     very important eﬀort and we con nue to support and encourage our team to
     assist the broader OIG community.

x   Special Agent-in-Charge Cur s Flood is par cipa ng in the CIGIE Website
     Redesign Working Group that began during this period. Ac vi es undertaken
     include (1) developing a Website Content Project Plan that iden fied specific
     goals and objec ves to create an innova ve redesign of the CIGIE website; (2)
     reviewing web pages from other OIGs and agencies to understand how social
     media impacted their web content; and (3) issuing a survey to the IG
     community to iden fy how stakeholders viewed the user ability of the current
     CIGIE website. The working group is currently analyzing the survey data.
                                                                                       OIG employees
x   IT Audit Manager Jarvis Rodgers ac vely par cipated and advised the IG in her    contributed to the
     service as the CIGIE IT Commi ee Chair, including assis ng in procuring          Inspector General
     speakers and par cipants to address IT issues that are per nent to the              community.
     Inspector General Community. He was also ac ve on the Federal Audit
     Execu ve Council (FAEC) IT commi ee, a ending mee ngs and opining on IT
     security legisla on.

x   A senior auditor par cipated in CIGIE’s New Media Working Group to build
     upon prior work in the September 2011 report, Recommended Prac ces for
     Oﬃce of Inspectors General Use of New Media. Subgroups focused on legal and
     informa on security issues associated with Oﬃce of Inspectors General oﬃcial
     use of social media. The report, New Media for Oﬃces of Inspectors General: A
     Discussion of Legal, Privacy and Informa on Security Issues, was issued in
     September 2013.

x    A Special Agent completed the Federal Law Enforcement Training Center’s
     Covert Electronic Surveillance Program (CESP) in February 2013 and earned a
     Provisional Technical Inves gator Cer fica on from the Na onal Technical
     Inves gators’ Associa on.




            SEMIANNUAL REPORT TO CONGRESS          PERIODS ENDING 9/30/12 THROUGH 9/30/13   35
                    THIS PAGE INTENTIONALLY LEFT BLANK




36   PBGC OFFICE OF INSPECTOR GENERAL
Appendix
CROSS-REFERENCE TO REPORTING REQUIREMENTS
OF THE INSPECTOR GENERAL ACT

The table below cross-references the reporting requirements prescribed by the Inspector General Act
of 1978, as amended, to the specific pages in the report where they are addressed.

Inspector General
Act Reference            Reporting Requirements.                                         Page

Section 4(a)(2)          Review of legislation and regulations.                          31

Section 5(a)(1)          Significant problems, abuses, and deficiencies.                 5-30

Section 5(a)(2)          Recommendations with respect to significant                    5-30
                         problems, abuses, and deficiencies.

Section 5(a)(3)          Prior significant recommendations on which
                         corrective action has not been completed.                      42-43
Section 5(a)(4)          Matters referred to prosecutorial authorities.                  39

Section 5(a)(5)          Summary of instances in which information                      31
                         was refused.

Section 5(a)(6)          List of audit reports by subject matter, showing               40-41
                         dollar value of questioned costs and
                         recommendations that funds be put to better use.
Section 5(a)(7)          Summary of each particularly significant report.                5-30

Section 5(a)(8)          Statistical table showing number of reports and                40-41
                         dollar value of questioned costs.

Section 5(a)(9)          Statistical table showing number of reports and                40-41
                         dollar value of recommendations that funds be
                          put to better use.

Section 5(a)(10)         Summary of each audit report issued before this                 41
                         reporting period for which no management
                         decision was made by end of the reporting period.
Section 5(a)(11)         Significant revised management decisions.                       31

Section 5(a)(12)         Significant management decisions with which                     31
                         the Inspector General disagrees.




                  SEMIANNUAL REPORT TO CONGRESS          PERIODS ENDING 9/30/12 THROUGH 9/30/13       37
             THIS PAGE INTENTIONALLY LEFT BLANK




38   PBGC OFFICE OF INSPECTOR GENERAL
SUMMARY OF AUDIT AND INVESTIGATIVE ACTIVITIES
For the Six-Month Periods Ending September 30, 2012 through September 30, 2013


                                                                                    9/30/12             3/31/13           9/30/13
Audits/Evaluations Issued
         Number of Reports                                                          1                         4                   3
         Number of Recommendations                                                  5                         5                  17
Management Decisions
         Open Recommendations Beginning of Period                                195                     183                 158
         Opened This Period                                                        5                       5                  17
         Closed This Period                                                       17                      30                   3
         Open Recommendations End of Period                                      183                     158                 172
         Reports with Open Recommendations End of Period                          28                      26                  29

Investigations
         Pending Beginning of Period                                                8                       13                  13
         Opened                                                                     8                        1                   2
         Closed                                                                     3                        1                   1

Complaints1
         Pending Beginning of Period                                               15                    16                  16
         Opened                                                                    57                    52                  33
         Closed                                                                    56                    52                  26
         Pending End of Period                                                     16                    16                  23

Financial Recoveries2
         Theft of Funds Recovered                                                   0                    0                   0
         Court Ordered Fines, Penalties, and Restitution                            0                    $12,000             0
         U.S. Government Property Recovered                                         0                    0                   0
Criminal Actions2
         Arrests                                                                    0                    0                   0
         Indictments                                                                0                    0                   0
         Convictions                                                                0                    0                   0

Administrative Actions2                                                            0                    2                   2

Referrals
         For Prosecution:
            Department of Justice                                                   1                    0                   0
            Various States’ Attorney Offices                                        0                    0                   0
                Declined                                                            0                    1                   1
         For Other Action:
               PBGC Management for Corrective Action                                0                    6                   3

1
    Complaints include allegations received through the hotline operation and issues resulting from proactive investigative efforts.
2
    Results reported for Financial Recoveries, Criminal, and Administrative Actions include both open and closed cases.


         SEMIANNUAL REPORT TO CONGRESS                      PERIODS ENDING 9/30/12 THROUGH 9/30/13                                    39
     RESULTS OF REPORTS ISSUED
     For the Six-Month Periods Ending September 30, 2012, March 31, 2013, and September 30,
     2013


                                                Number       Ques oned   Unsupported    Funds Put to
                                                of Reports     Costs       Costs         Be er Use

      A. For which no management decision       3            $0          $0                 $0
         had been made by the commence-
         ment of the repor ng period.


     B. Which were issued during the re-        10             $0                  $0            $0
        por ng period.


         Fiscal Year 2011 Federal Informa on                   $0                  $0            $0
         Security Management Act Independ-
         ent Evalua on Report (5/11/2012)


         Ensuring the Integrity of Policy Re-
         search and Analysis Department’s                      $0                  $0            $0
         Actuarial Calcula ons (5/21/2012)


         Audit of Pension Benefit Guaranty                     $0                  $0            $0
         Corpora on’s Fiscal Year 2012 and
         2011 Financial Statements
         (11/14/2012)


         FY 2012 Federal Informa on Securi-                    $0                  $0            $0
         ty Management Act Submission to
         the Oﬃce of Management and
         Budget (11/14/2012)


         Report on Internal Controls Related
         to the Pension Benefit Guaranty Cor-                 $0                   $0            $0
         pora on’s Fiscal Year 2012 and 2011
         Financial Statements (11/15/2012)


         Audit of Pension Benefit Guaranty
                                                              $0                   $0            $0
         Corpora on’s Fiscal Year 2012 and
         2011 Special Purpose Financial
         Statements (11/16/2012)



40          PBGC OFFICE OF INSPECTOR GENERAL
RESULTS OF REPORTS ISSUED Continued
For the Six-Month Periods Ending September 30, 2012, March 31, 2013, and September 30, 2013


                                                Number        Ques oned      Unsupported    Funds Put to
                                                of Reports      Costs          Costs         Be er Use

     FY 2012 Audit of PBGC’s Compli-                           $0                      $0            $0
    ance with the Implementa on of
    the Improper Payments Act
    (3/14/2013)


    Fiscal Year 2012 Federal Informa on                       $0                       $0           $0
    Security Management Act Inde-
    pendent Evalua on Report
    (5/1/2013)

                                                               $0                      $0           $0
    Fiscal Year 2012 Financial State-
    ments Management Le er
    (5/14/2013)
                                                               $0                      $0           $0
    Fiscal Year 2012 Vulnerability As-
    sessment and Penetra on Tes ng
    Report (5/16/2013)


    Total (Add A. & B.)                           13            $0                     $0            $0



    C. For which a management decision                 12               $0             $0                  $0
    was made during the repor ng period.


    (i) dollar value of disallowed costs                                $0             $0                  $0



    (ii) dollar value of costs not disallowed                           $0             $0                  $0


    D. For which no management deci-                   1                $0             $0                  $0
    sion had been made by the end of the
    repor ng period.
    E. For which no management deci-                    0               $0             $0                  $0
    sion was made within six months of
    issuance.

    1
        Unsupported costs are a subset of ques oned costs.
            SEMIANNUAL REPORT TO CONGRESS                    PERIODS ENDING 9/30/12 THROUGH 9/30/13         41
PREVIOUSLY REPORTED SIGNIFICANT RECOMMENDATIONS
FOR WHICH CORRECTIVE ACTION HAS NOT BEEN COMPLETED

  Report Number, Report Title and                            Significant Problems    Summary of Signifi-
  Date Issued                             Number of          and Deficiencies        cant Recommenda-
                                          Significant                                tions
                                          Recommendations

  96-4/23093-2                                               Significant             PBGC needs to
  Audit of the Pension Benefit Guaranty                      Deficiency:             complete the inte-
  Corporation’s Fiscal Year 1995 Finan-                      Integrating Financial   gration of its finan-
  cial Statements 03/13/1996                                 Management Sys-         cial management
         and                                      1          tems                    systems.
  AUD-2008-2/ FA-09-0034-2
  Limited Disclosure Report on Internal
  Control - PBGC’s FY 2007 and 2006
  Financial Statements Audit
  11/15/2007

  2003-3/23168-2                                             Significant             PBGC needs to
  Audit of the Pension Benefit Guaranty                      Deficiency:             complete its efforts
  Corporation’s Fiscal Years 2002 -                          Entity-Wide Infor-      to fully implement
  2001 Financial Statements 01/30/2003                       mation Security Pro-    and enforce an ef-
        and                                                  gram                    fective information
  AUD-2008-2/ FA-09-0034-2                        1          Planning &              security program.
  Limited Disclosure Report on Internal                      Management
  Control - PBGC’s FY 2007 and 2006
  Financial Statements Audit
  11/15/2007


  2003-10/23177-2                                            Control weaknesses      PBGC needs to en-
  Review of PBGC’s Premium Account-                          undermine the quali-    sure that its auto-
  ing System                                      3          ty and integrity of     mated system pro-
  10/10/2003                                                 reported premium        duces accurate and
                                                             revenues.               verifiable premium
                                                                                     accounting data.
  2008-1/FA-0034-1                                           Significant             PBGC needs to mit-
  Audit of the Pension Benefit Guaranty                      Deficiency:             igate the systemic
  Corporation’s Fiscal Years 2007 -                          Access Controls         issues related to in-
  2006 Financial Statements 11/15/2007                                               formation access
        and                                                                          controls.
  AUD-2008-2/ FA-09-0034-2
  Limited Disclosure Report on Internal
  Control - PBGC’s FY 2007 and 2006               8
  Financial Statements Audit
  11/15/2007

          42              PBGC OFFICE OF INSPECTOR GENERAL
PREVIOUSLY REPORTED SIGNIFICANT RECOMMENDATIONS
FOR WHICH CORRECTIVE ACTION HAS NOT BEEN COMPLETED

 Report Number, Report Title and         Number of               Significant Problems     Summary of Significant
 Date Issued                             Significant             and Deficiencies         Recommendations
                                         Recommendations


 AUD-2009-01/FA-08-49-1                                          Entity-Wide Infor-       PBGC needs to com-
 Audit of the Pension Benefit Guar-                              mation Security Pro-     plete the design, imple-
 anty Corporation’s Fiscal Years                                 gram & Planning          mentation and testing of
 2008 and 2007 Financial Statements                              Management               security controls, imple-
 11/13/2008                                                                               ment an effective certifi-
                                                   3
     and                                                                                  cation and review pro-
 AUD-2009-02/FA-08-49-2                                                                   cess, and correct identi-
 Limited Disclosure Report on Inter-                                                      fied access control vul-
 nal Controls – PBGC’s FY 2008 and                                                        nerabilities.
 2007 Financial Statements
 11/13/2009
 AUD-2010-09/IT-09-67                                            System control weak-     PBGC needs to strength-
 PBGC Needs to Improve Controls to                               nesses placed PII of     en security controls and
 Better Protect Participant                                      approximately 1 mil-     complete a certification
                                                   5
 Personally Identifiable Information                             lion participants at     and accreditation review
 (PII)                                                           risk.                    of the system housing
 09/16/2010                                                                               the PII



 AUD-2010-08/IT-09-67                                            Information technolo-    PBGC should seek
 Authorization to Operate PBGC In-                               gy general support       OMB waiver allowing
 formation Systems                                               systems and major        conditional authoriza-
                                                   3
 08/18/2010                                                      applications without     tion, based on ongoing
                                                                 ATOs required by         efforts to improve infor-
                                                                 OMB.                     mation security.
  EVAL-2012-5/PA-10-72                                           Systemic errors and      PBGC needs to re-value
  PBGC Processing of Terminated                                  omissions in audits of   the UAL plan assets and
  United Airlines Pension Plans was               15             terminated pension       strengthen the post-
  Seriously Deficient 11/30/2011                                 plans                    trusteeship audit pro-
                                                                                          cess.

  EVAL-2011-10/PA-09-66                                          Systemic errors and      PBGC needs to re-value
  PBGC’s Plan Asset Audit of Na-                                 omissions in audits of   the National Steel plan
  tional Steel Pension Plans was Seri-            12             terminated pension       assets and strengthen the
  ously Flawed 3/31/11                                           plans                    post-trusteeship audit
                                                                                          process.

 This chart complies with Section 5(a)(1), (2) and (3) of the Inspector General Act of 1978, as amended.

               SEMIANNUAL REPORT TO CONGRESS            PERIODS ENDING 9/30/12 THROUGH 9/30/13                43
If you want to report or discuss confiden ally any instance of
misconduct, fraud, waste, abuse, or mismanagement, please
          contact the Oﬃce of Inspector General.


                         Telephone:
              The Inspector General’s HOTLINE
                      1-800-303-9737


    The deaf of hard of hearing, dial FRS (800) 877-8339
     and give the Hotline number to the relay operator.


                            Web:
       h p://oig.pbgc.gov/inves ga ons/details.html


                          Or Write:
           Pension Benefit Guaranty Corpora on
                 Oﬃce of Inspector General
                       PO Box 34177
                Washington, DC 20043-4177
